:11­




                   FOSTER CARE ADINISTRTIVE COSTS





       OFFICE OF INSPECTOR GENERAL
         OFFICE OF ANALYSIS AND INSPECTIONS


                                                     OCTOBER   19P
                     Office of Inspector General


The mission of the Office of Inspector General (OIG) is to
promote the efficiency, effectiveness and integrity of programs
in the Uni ted SIa es Department of Heal th and Human Services
(HHS). It does this by developing methods to detect and prevent
fraud, waste and abuse. Created by statute in 1976, the
Inspector General keeps both the Secretary and the Congress fully
and currently informed about programs or management problems and
recommends corrective action. The OIG performs its mission by
conducting audits , investigations and inspections with
approximately 1 200 staff strategically located around the
coun try.

               Office of Analysis and Inspections


This report is produced by the Office of Analysis and Inspections
(OAI), one of the three major offices within the    OIG.
                                                       The other
two are the Office of Audit and the Office of Investigations.
The OAI conducts inspections which are typically short term
studies designed to determine program effectiveness, efficiency
and vulnerability to fraud or abuse.
                             This Report


Entitled Foster Care Administrati ve Costs , this study was
conducted to evaluate the high absolute levels and wide variation
among States in Title IV-E foster care administrative and
training costs.

The report was prepared by the Regional Inspector General , Office
of Analysis and Inspections, Region V. Participating in this
project were the following people:
William C. Moran
Theodore L. Koontz
Carolyn Kelley
Aquilla R. Box
Laura Chierici
              FOSTER CARE ADMINISTRATIVE COSTS





                    RICHARD P. KUSSEROW

                     INSPECTOR GENERAL





OAI-05-87-000l2                              October 1987
-.




                             EXECUTIVE SUMRY


     PURPOSE   The purpose of this inspection was to evaluate the
     seemingly high absolute levels and wide variation among States in
     ti tleIV-E foster care administrative and training costs. This
     invol ved an examination of:
          indicators of fvster care administrative   cost;
          transfer of costs from the Stat s to the Federal Government;

          efficiency of State program operations;


          Office of Human Development Services (OHDS) performance in

          handling administrative cost issues; and

          legislative approaches to cost containment.



     BACKGROUND    Public Law (PL) 96-272 (the Adoption Assistance and
     Child Welfare Act of 1980) established title IV-E of the Social
     Securi ty Act, and was seen as a means of reforming foster care
     and adoption assistance in the United States. At the time the
     Act was passed, it was believed that the public child welfare
     system had become a holding system for children living away from
     their parents with little hope of either being reunited or
     achieving a permanent heme.
          Ti tle IV-E provided for Federal paYment of 50 percent of the
          administrative costs , 75 percent of the training costs and a
          variable share (not less than 50 percent) of the maintenance
          cost associated with the care of eligible foster care
          children.  Funds' were also made available for adoption
          assistance to aid in the placement of special needs
          children.
          Congress believed that title IV-E administrative and
          training costs would not exceed 10 percent of maintenance
          cost and that total expenditures for foster care would be
          capped.   Except for Fiscal Year (FY) 1981 , the provisions
          for triggering the cap were never met. For all practical
          purposes, the foster care program has functioned as an
          enti tlement program since its inception.
          Federal expenditures for title IV-E foster care
          administrative and training costs have been much greater
          than expected. Between FYs 1981 and 1985 these costs rose
          by more than 438 percent - from $30. 4 to $163. 4 million.
          The average number of title IV-E children served each month
          rose only about 5 percent - from 103 000 to 108,   000. Over
          this same period , the overall ratio of administrative and
          training costs to maintenance costs rose from . 11 to . 49.
MAJOR ' FINDINGS                          The rise in total Federal share of foster care
administrative and training costs and the wide variation among
states in the ratio of administrative to maintenance costs were
unanticipated.                         Some analysts argue that States are either
charging for unallowable administrative expenses or operating

inefficiently.                          Foster care administrative costs are alleged to
be far out of line when compared with the 
                         ost of running the Aid
to Families with Dependent Children                          (AFDC), Medicaid and Food

stamp programs.

      The title IV-E definition of administrative costs covers a

      wide variety of program and service activities that would

      not be viewed as administrative costs under AFDC, Medicaid

      or Food Stamps. These include: referral to services;
      preparation for and participation in judicial

      determinations; placement in foster care; development of a

      case plan; case reviews; case management and supervision;
      recrui tment and licensing of foster homes and institutions;
      rate setting; and a proportional share of agency overhead.
      The differences in the definition of allowable

      administrative costs make comparisons among these programs

      difficul t and for the most part inappropriate.
       Some of the variation in foster care administrative costs
       appears to be the result of differing State strategies or
       abili ties to claim costs , and not because of differences in
       effort or efficiency. Not all States have in place systems
       necessary to document all allowable administrative costs.
       Some have chosen to deliberately underclaim costs in order
       to transfer leftover amounts to title IV-B child welfare
       services.   Because of this, some measures of relative State
       performance such as administrative cost per child and the
       ratio of administrative to maintenance costs better reflect
       charges    to the Federal Government rather than the
                costs
       running the program. Similarly,  the use of percent change
       in administrative cost to measure relative growth over time
       is complicated. Many States had an artificially low base
       in the early years due both to their inability to claim all
       appropriate costs and the absence of required program
       components.
       States maintain they are charging the Federal Government

       only for administrative costs allowed by the legislation and

       necessary for the operation of their programs. The proposed
       reduction in Federal paYment for administrative costs is

       seen as transferring these expenses back to the States

       rather than controlling costs per se.
       The OHDS has sought to narrow the scope of allowable
       administrati ve costs by requiring that the expense of
       such activities as preplacement services and the recruiting
            ...




     and licensing of foster care providers be prorated on the

    - basis of the ratio of IV-E to non-IV-E children. A March
     1987 decision in a case brought by Missouri before the
     Departmental Grant Appeals Board appears to have limited the
     abili ty of OHDS to control these types of costs by defining
     as payabl - a variety of services which OHDS had previously
     sought to exclude. The full implications of this decision
     are yet to be determined.

RECOMMENDATIONS   Over the last several months , OHDS has taken
steps to evaluate the management of the foster care program and
is currently involved in a structural realignment aimed at
improving its own performance. - There are a number of additional
short and long range actions which can be taken to help achieve
this objective:

     Seek interpretation of the Missouri decision of the Grant

     Appeals Board and issue a policy clarification to the

     States.
     Conduct and issue an analysis of cost allocation plans

     (CAPs) and eligibility determination systems used by

     States that have employed consultants who allegedly

     push interpretation of the Act and regulations to the

      imi   t.
     Develop a national protocol for use by regional office staff
     in the routine evaluation of CAPs. Both program and
     financial staff should be involved in these reviews.
     Revise the methodology for conducting retrospective

     administrative cost reviews to incorporate a broader look

     at the relationships between cost , program effort, and

     program outcomes.
     Reevaluate the effectiveness of PL 96-272 in reforming the
     foster care delivery system and encouraging adoption.
     Include an examination of the:
     - incentive structure in the Act;
     - continued funding of foster care on an income-related

        basis;
     - tradeoffs between reduced rates of participation and

       expanded client coverage; and

     - elimination of artificial distinctions between

        administrati ve and maintenance costs.

AGENCY COMMENTS   In its comments on this inspection , OHDS states

that         believes the report to be a valuable addition to the

body of knowledge about administrative costs in the title IV-E


                                iii

program and that (the inspection) makes observations that (OHDS
hasl tried to communicate about the complexity of the legislation
and state administration... " The OHDS indicates that it ... will
seriously consider each of the recommendations... (and has)
already begun implementation of some or parts of some of the
recommendationS-
The OHDS indicated that in the draft inspection report the impact
of the findings in the Missouri decision of the Grant Appeals
Board was overstated. We have now included the full text of this
decision as Appendix C of this final report for the reader to
examine. The OHDS was also concerned that the discussion of the
agency s opinlon on cost transfer by the states was also
inaccurate. A review of the discussions with OHDS Headquarters
and regional office personnel , along with the interviews of state
officials, confirmed that there was a widespread perception that
OHDS considered many expanded state claims for foster care
administrative cost highly inappropriate if not specifically
illegal. If  these perceptions do no reflect official OHDS
policy, then a clarifying policy memorandum might be needed.
In order that the Office of Inspector General (OIG) may track the
specific response to this report , it is recommended that OHDS
provide an agenda and timetable for the recommendations it plans
to implement and an additional explanation of why some, or parts
of some, recommendations have been rejected.
                --




                             TABLE OF CONTENTS


                                                         Page
       EXECUTIVE     SUMRY
       INTRODUC':ION

       Purpose and Obj ecti ves
       Methodology
           Background
           Table 1

 II.   FINDINGS AND ANALYSIS

           Overview
           Review of Indicators
           Transfer of Costs to the Federal Government
           Missouri Decision of the Departmental Grant
             Appeals Board
           Efficient Operation of the Program
           OHDS Handling of Administrative Cost Issues
           Legislative Approaches to Cost Containment

III.   RECOMMENDATIONS

           Short Term Recommended Actions
           Long Term Recommended Actions
           OHDS Response and Recommended FOllow-up
       APPENDIX A
           Table     1
           Table     2
           Table     3
           Table     4

       APPENDIX B

           OHDS Comments

       APPEND IX C

           Departmental Grant Appeals Board
           Decision:  Missouri Department of
           Social Services, Docket No. 85-209,
           Decision No. 844 , March 2 , 1987
            NTRODUCTION

Purpose and Obj ecti ves
The purpose of 
          his inspection was to evaluate the seemingly high
absol ute levels and wide variation among states in title IV-E
foster care administrative          costs.   This involved an examination
of:
            indicators of foster care administrative   cost;
            transfer of costs from the States to the Federal

            Government;
            efficiency of state program operations;


            the OHDS performance in handling administrative cost     issues;
            and
            legislative approaches to cost containment.


Questions emerged from this inquiry regarding whether foster care
administrative costs were more unanticipated than inappropriate,
the extent to which the level and rate of growth of these costs
actually constitute a serious problem for the Department , and

what standards should be used to judge the appropriateness of

these administrative costs.
Methodology
This inspection built on work which was done as part of the

 Program Inspection of AFDC , Medicaid and Food stamp
Administrative Costs " issued in December          1986.
                                                 For that
study, discussions were held with personnel of the Office of the
Secretary, Department of Health and Human Services (HHS) and the
invol ved Operating Divisions (OPDIVs). Si te visits were made to
10 States and a representative from OIG participated as a member
of a work group on welfare administrative costs established by
the Office of the Assistant Secretary for Planning and Evaluation
(ASPE) during the fall of 1986.
In order to gather additional data specifically related to foster
care administrative costs, discussions were held with
Headquarters and/or regional office personnel from the Office of
Management and Budget (OMB), the Office of the Assistant
Secretary for Management and Budget (ASMB), ASPE and OHDS.
addi tion , site visits were made to nine States (Pennsylvania,
Maryland , Georgia , Florida, Indiana , Illinois , Minnesota , Oregon
and Washington) to get their insight into these            issues.
                                                              The
States selected did not constitute a random sample of experience
and as such were not formally representative of the national
experience as a whole. However , they are geographically
disbursed and provide some cross-national representation. Also,
they give a sense of some regional contrasts between relatively
high and low cost States (Maryland vs. Pennsylvania; Georgia vs.
Florida; Illinois and Minnesota vs. Indiana; and Washington vs.
Oregon) . 

In addition to the discussions, cost allocation materials from
each of the above States were reviewed. Also examined were draft
reports prepared by OHDS as part of their internal studies of
administrative costs, task force documents, and contract studies.

Background
The PL 96-272 (the Adoption Assistance and Child Welfare Act of
1980) established title IV-E of the Social Security Act which was
seen as a means of reforming the Nation s approach to foster care
and adoption. The first Notice of Proposed Rulemaking described
the impetus behind this legislation as the:
      Belief of Congress and most State Child Welfare
     administrators, supported by extensive research , that
     the public child welfare system responsible for
     serving children , youth and families had become a
     receiving or holding system for children living away
     from parents, rather than a system that assists
     parents in carrying out their roles and
     responsibili ties and provides alternative placement
     for children who can not return to their own homes.
     Studies (had shown) that under (then) current pOlicies
     and procedures, thousands of children (were) stranded
     in the public foster care system with little hope of
     being united with their families or having a permanent
     home through adoption or other permanency planning,
     thereby causing harm to the children and high costs to
     the States.    ( Federal Register/Vol. 45, Number
     252/Wednesday December 31 , 1980/Rules and Regulations,
     p. 86818).

Ti tle IV-E provides for Federal paYment of 50 percent of the cost
of the proper and efficient administration of the State plan for
foster care and for 75 percent of the cost of training for
persons employed or preparing for emploYment by the agency
administering the plan. Maintenance costs for eligible foster
care children are matched at a rate which varies between 50 and
75 percent. Ti t1e IV-E established a separate category of funds
to assist the states in subsidizing the adoption of special needs
children.
The legislation also amended title IV-B of the Social Security
Act which authorized funds for child welfar.e services. Under the
new provisions , States which wished to receive more than a

minimal level of IV-B funding were required to establish new case

review systems, case planning designed to achieve placement of

foster care children in the least restrictive settings

administrative _Qr court review of the child' s situation every 6

months, and dispositional review by a court no later than 18

months after placement.


The legislation included a complex set of interrelated provisions

aimed at lessening the incentives for long term foster care and

at encouraging and facilitating adoption , particularly for

special needs children. state foster care plans were required to

provide for coordination between title IV-E foster care and

adoption assistance, title IV-B child welfare services and title

XX social services. Previously, foster care had been funded on

an open-ended basis as part of the AFDC program. The new title
IV-E foster care funds were to be capped, while funding of the

new adoption assistance program was to be an open-ended

enti tlement. If a state spent more than the cap on foster
care, it would have to absorb the difference. If a state

spent less on foster care than the cap, it could transfer

the difference to title IV-B , where it could be used in a

less restrictive manner.


The foster care cap was to be imposed only when title IV-B child

welfare funding reached a certain trigger level (FY 1981 $163.
million; FY 1982 $220 million; and FYs 1983, 1984 and 1985, $266

million).  Only in FY 1981 was the trigger amount appropriated.
Therefore, the title IV-E foster care program has operated as an

enti tlement program in all but 1 year since its inception.
Wi th the failure of the cap on total IV-E reimbursement , some
states found it advantageous to obtain title IV-E eligibility for
as many foster care children as possible and to also document
every possible eligible administrative and training  dollar.
the absence of the cap, the amount which they receive over the
hypothetical ceiling for foster care more than compensates for
the loss of IV-B flexibility which would be gained from transfer.
But there are a variety of factors that go into a State
decision on whether or not to transfer  funds. Simple income
maximization is not always the rule.
Table 1 below presents selected national statistics on the title

IV-E foster care program for FY 1981 through FY   1985. (Tables 1
to 4 in Appendix A present data on individual states and the

District of Columbia over the same time period.    Between FY 1981

and FY 1985 , the number of children served rose about 5

percent--from 102 991 to 108, 193.  The total Federal share of
administrative and training rose by 438 percent--from $30.

million to $163. 4 million. The ratio of the Federal share

administrati ve and training costs to maintenance cost rose 346
percent--from . 11 to .49.  In FY 1985, five States (Arizona,
Maryland, Missouri , Washington and West Virginia)   had claims for
administrati ve and training cost greater than for   maintenance.
                                 Table 1


Federal Expenditures for Title IV-E , Foster Care
Administrative, Training and Maintenance Costs, Average
Monthly Number of Children Served and Percent Changes ­
Fiscal Years 1981-1985.


                                            FISCAL YEA                          PERCENT
                                                                                CHANGE
                        1981       1982        1983        1984      1985      1981-1985

 FEDERA SHAE (rS)
 TITLE IV-E
 ADMINISTRATIVE        $30.       $72.       $ll7. 9     $147.      $163.       +437.
 AND TRAINING
 COSTS (S MILLION)

 FEDERA SHAB (rs)
 TITLE IV-B
 POSTBR CARB          $278.      $301. 2     $276.       $297.      $333.       +19.
 MAINTBNANCB

 COSTS

 ($ MILLION)


 TOTAL                $308.      $373.       $394.       $445.      $497.        +60. 9t




 AVERAGB MONTHLY

 NUMBER or            l02, 991 100, 200       98, 727    100, 787   108, l93      +5.

 CHILDRBN SERVED

 A VERAGB
 ADMINISTRATION          $295       $725      $l, 194     $1, 463    $1, 510    +411.

 AND TRAINING

 PER CHILD

 AVERAGE rs

 MANTBNANCB            $2, 703    $3, 006     $2, 805     $2, 955    $3, 083     +l4.
 PER CHILD


 (ADINISTRATION

 AND TRAINING)/                                                                 +345.

 MAINTBNANCE



Congress did not anticipate that administrative costs would ever
reach the levels that have been attained. The Conference Report
made no reference to administrative costs per se, implying that
inclusion of these expenses was noncontroversial. One respondent
contacted, who was familiar with the legislative history,
recalled that when the legislation passed it was estimated that
foster care administrative cost would be less than 10 percent of
maintenance, as compared to the 49 percent it reached in 1985.
                                                            made
                            minimalopened
The language of the legislation      expectations.
                                           the door The
                                                    for Act  
 to

                                                         states
make claims beyond thes

reference to allowing    payments
                   " found        for by
                           necessary   administrative
                                         the secretaryand
                                                  " withfortraining

                                                            the proper
                                                          nO

costs in amounts

 and efficient administration of the state plan

 defini tion
(except for training) as to what would actually be

eligible.    However. the requirements for the state plan included
 in section 471(a) of the Act and the definitions in section 475

 incorporate a long list of required procedures and safeguards

 that were seen as necessary for reform of the foster care

 program.
 The regulations further provided areferral
                                     listing to
                                              ofservices;

                                                 determinations;
                                                 allowabl

 administrative costs including:                             reviews;
 preparation for and participation in judicial
 placement of the child:  development
                      supervision:    of a case and
                                   recruitment   plan; case
 case management and                   setting: and licensing  of

                                                     a proportional

                             The rate

  foster homes and institutions; list of specific activities which

  share of agency overhead.
  may not be claimed as part  of services
                         social   administrative costs
                                          provided     counseling
                                                        is much

                                                   to the         or
                                                           child and

  shorter and includes "

  the child' s family or foster family which provid

  treatment to ameliorate or remedy personal problems,

  behavio or home conditions.
  II.   FINDINGS AND ANALYSIS

   overview
   Some analysts of the foster care program cite the basic numbers

                                              is the  position that,
   and statistics on administrative cost as if they provide  prima

   facie evidence that the          arguents
                           unanticipated         

                                         expenditures  are per se

                   Typical of these
   inappropriate.
   if state X can run its foster care program for
                                                (2) astate
                                                       per unit

                                                           Y is

   administrative and training cost of 25 or 50 providing
                                                  percent ofuncovered
                                                              state

   y' s. then (1) state X Governent
                           is more efficient or
                                      the cost of     When a state
   charging the Federal

    activities and/or serving ineligible children.
    spends 50 cents or more on administration for the
                                                   every dollar

                                         share. If    administrative
                                                               food.
    it pays out in maintenance, it is argued that the bureaucracy

    must be taking more than its fair
    costs were lesS,
                
                         child.
                      there would be more money Questions  are asked
                                                for services,

    shelter and clothing for the needy                  463 as opposed

    regarding why in 1984 the average Federal share of foster care

     administrative and training cost per child was $1,

                             AFDC.
     to $94 per recipient in                     , it is necessary to

                                                                   used.
     In order to deal with these kinds of issues
     first examine how the indicator numbers can and should be 

                                      efficiency, inappropriate
                       Governent, and OHDS efforts at cost
Then such questions as relative state
charges to the Federal
containment can be considered.
Review of the Indicators

                                    numbers, often used as indicato

An examination of four basic 

state foster care performance over time, illustrates why to date

it has been difficult        to do any    Federal share
                                         systematic      of IV-E analysis

                                                                 foster
 - E
of the program.ti ve
                  These are:
                                    ( 1)
                                                 ( 2)statistical
                                                      Federal share   of IV
                                                                  - E foster
                          and training costs;
care administra                                            costs; ( 3) average number of IV
 foster care maintenance       (4) Federal share of administration

 care children per month; E child.
                          and

 and training cost per IV-

 Analysts have lOoked at these numbers and rates at a particular

 point in time, the rate of change over
 among states at a point in 

                                                              time.
                                                        Some time
                                                             studies
                                                                  and have alsO tried to
                                                                       the variation

 measure through the use of correlation coefficients and

 regression analysis, the relationship between these variables and

  a variety of demographic, organizational, and quality of output

 variables.                    Such studies were designed to identify statisticallY
  significant relationships which would be interpreted as
  determinants of cost.
                                                ty with using these variables as program
  The most serious difficul
  performance indicators is that the Federalcharqes
                                                                         to the Federal
                                                                  share of title IV-E

   administrative costs only represents the 

                                              actual cost of running these programs.

  Government and not the 


  Both state and Federal respondents in this study agreed that

                                            This includes
  states vary widely in their ability to document           both the

                                                   the costs

  eligible for IV-E administrative match. 

  capacity to isolate all eligible expenses andWhen
                                                 alsothe
                                                       theproportion

                                                            ability to

  identify every child who is IV-E eligibl    low,  total  IV-E

                                        This
  of children identified as IV-E eligible    is because the

                                           is

   administrative costs are held down.
               E to non-IV-E foster care children is often used

   ratio of IV-
   to allocate some indirect costs and other cost poolS.


    In addition, the degree to which a state claim time,   withall

                                                    includes    a

    eligible administrative costs would vary over 

                                                      This   is               years.
    greater percentage included in the later

    because
             it
                                                      Also,
                took time for some states to develop the
                                                        it
                                                              the
                                                           cost

                                                            was          legislation.
     allocation systems required by the 

     states (like congress) did not know how expensive 


     or would be to provide the protectivelegislation.
                                            and planning services

     required and now paid for under the 


      The respondents indicated that states vary considerably in their

      strategies for claiming costs andof,
                                         in maximizing their Federal

                                             their perceptions regarding

      the need for, or the advantages      of one state indicated clearly

       reimbursement. The representative
that she knew they had
                     as greatlY
                        well as underclaimed
                                 maintenance, both  administrative

and -training costs, 
                  IV-B. in
                                              Fororder
                                                   them  to
                                                         it have

                                                             was
funds left over to transfer to title 

easier to get their counties to pick up the unmatched cost than

                           The to
 to get the state legislature  respondent indicated
                                  appropriate         thatthe
                                               additional
                                                 costs,     when
                                                            funds the
                                                                   for

                                                               percent

child welfare services.
state becomes responsible for all In another
                                   foster    state costs,
                                          care      where counties

                                                          the state

that are claimed will increase. 

are also required to pay some of the foster care 

has lesS incentive to do this
                          the detail
                              state, work thathave
                                     counties  wouldatresult in
 The
                                                       least three

full reimbursement. In 

 options on how to claim their local costs for reimbursement. 

 respondent indicated that for some officials simplicity was more

 important than efficiency.

                                   staff,
 It appears that in states where the      and extra
                                      financial      funding

                                                management   function

 is furthest removed from program 

 resulting from efficient collections goes to the general revenue

 fund, the program people are lesS willing to push professional

                              where
 staff to do the detailed record    the state
                                  keeping      financial
                                          necessary       management

                                                     forstaff,  they

                                                          income

  maximization. In addition,                          proof,
  staff are organizationallY distant from the program 

  may see greater advantage to operating an audit-

  noncontroversial cost allocation system rather than getting back

  every Federal dollar.
   other- states in the sample One
                                make  a strong effort
                                    respondent         to capture
                                                was forthright  in every
                                                                    his

   possible Federal dollar.
   assertio that the capping of title XX andinflation,      required
                                                            possible.
                                                  the funding         his

                                                               of title

   IV- B at levels which do not keep up with 

   state to get additional Federal funds from wherever 

   This state and others in the sample have used a national

    consul tant who haS taught them to establish sophisticated random
    moment sampling systems for capturing IV-EE administrative
                                                   eligibl
        and
    training costs and other methods for identifying an increased

    percentage of foster care children as IV­

                                                                 E children

    Both the consultant and some state representatives      indicated
                                                This is because   the
 that

     it was more difficult to increase the percentage of IV-

     than to identify other eligible costs. 

     social service staff see thiS kind of activity as taking away

     time that should t!on,
     a case. In   addi be devoted
                            severalto respondents
                                       work on the indicated
                                                    substantive  aspects
                                                              that       of

                                                                   parents
                                                               because:
     of potential foster care children
                     E eligibility       have little This
                                     determination.   incentive
                                                           is
 to

     cooperate in IV­

     (1) such cooperation may( 2) parentsthe
                               increase    getprobability
                                               no direct benefit   from
                                                          of a child'

     removal from the home:
                                          (3) thereinformation
     cooperation like they would when providing      is already likely  to

                                                the state agencyinand
                                                                    order

                                                                      the

      to collect AFDC and Medicaid: and            s intervention into the

      be an adversarial relationship betwe

      parents, simplY on the basis of thechild.
                                            state

      life of the family to protect the 

Given the differences in what states  claim
                                    made, itfor
                                             is administration and

                                                inappropriate to

how eligibility determinations are

make either between or wi                            alone. There
                         thin time period comparisons of the
states ' performance based on the basic numbers
simply is no commonly defined dependent variable (administrative
cost) against which  to plot variouS supposed causal events orthe
circumstances. Therefore, it is not ASPE)
                                      surprising that
                                           nor the    neither
                                                   internal

Maximums studies (contracted for by

regressio analyses done by OHDS show any statisticallY This is
                                                       costs.
significant relationships between the factors they studied and

the Federal share of administrative and training 

 because the explanatory models which they proposed did not

 include factors related to the determinants of the claims

 and charges, or the strategies of claiming.

 In addition, we do not know whether the percent changes in

 Federal share of administrative cost over time - for an

 individual state or for the nation  - are
                               claimed, in due to changes
                                           resources used,in

                                                           or

 the percent of cost actually

 both.  This is important because changes in percent of cost

 claimed raise questions about potential cost shifting from

 the states to the Federal Government, while changes in

 resources used have implications for efficiency 




 These problems are further compounded when the Federal share of

 administrative or maintenance costs is corrected for E children  does

                                                         the number

 of IV-E children  served, because  the number of IV-

 not reflect the same phenomenon in each state due to the

 differences in the efficiency of the eligibility determinatio

  process. It  was reported that even where states are working to
 maximize both the number of children found eligible as well as

  administrative costs identified, improving eligibility

  determination systems takes  much
                            Also,   longer
                                  the       than
                                       number of implementing
                                                 IV-E children a new

   cost allocation system.                                   It is
                                                                is

   usually the average number of children served monthly. 

   possible that this figure masks differences in administrative

   costs that may be associated with longer or shorter length of

   stay in foster care.


    In summary, some data are available on the charges to the Federal

    Government for the administrative  and
                                         notraining
                                             accuratecost  of the
                                                               on IV-E

    foster care program. But thereThese
                                    are                figures
                                         charge data are further

                                                                   the
    actual administrative costs. 

    complicated because disputes continue between the states and OHDS

    over the amount of administrativeGiven
                                       coststhe probl ems
                                              actually    with
                                                        owed andthe data,

                                                                  paid to

     a state for a particular year.
     it is impossible to make systematic
                                      cost,judgments about
                                            the reasons forthe

                                                            variation

     determinants of administrative 

     among states wi thin This
                           a particular time period, or the rate of
                               is not to say that the costs in

     growth over time.
     particular states or the overall rate of growth of these costs is

                          the absence of common cost

fullY acceptable. But in 

determination or allocation methodOlogies that can be translated

                                         studies. about these

into a set of common categories, the information
events is better determined directly from individual case studies

and indirectlY from reviewing secondary            approach, this

                                              (1) the transfer of

using a variation of the case study and (indirect

                                          2) the alleged
inspection focused on four general topics: r care program: (3)
  ta te costs to the Federal Government:       ) legislative

 inefficiency of states in running the fost

 OHDS handl 
 ing of administrative costs: and (4
 approaches to cost containment.

 Transfer of Costs to the Federal Government


  Some OHDS officials have asserted that a growing number of states

                                 In testimony
  are transferring costs to the Federal        before
                                         Government   the Select

                                                     which
                                                 S. House   they

                                                           of

  themselves should be paying.      Families, U.    ner
                            22, and
- committee on Children, Youth  1987, the commissio

                                           Families, OHDS stated

  Representatives on April 

  Administration for Children, Youth and 

  that :
            It appears that states are finding ways to refinance

           existing services through these entitlements and that

           the growth in administrative cost does not reflect

           increases in services or improved management.

               , concerns were raised about the impact on

   In additio

   administrative cost of several consultants that are working with

                                  services.
   the states to improve systems for  documenting these expenses and

   counting clients eligible for 

   In response to these concerns and in order to facilitate costs.
                                                               broader

   objectives of cost containment, OHDS has tried to tighten the

   program guidelines which define eligible administrative 

   At various times OHDS has proposed legislation which would limit

   Federal participation in administrative cost to an amount not

                                                       IV-B.
   greater than 50 percent of the Federal share of maintenance     costs

    or which would makeassistance
                         administrative and training costs
                                  payable under title
       for foster

    care and adoptio

     It is important to note that OHDS has not documented that states

     are SystematicallY                                     (FORB),  OHDS.

     Governent.   seven transferring  ineligible
                         studies of foster        costs to the
                                            care administrative Federal

                                                                 cost
                                                  But there was no

     completed by the Financial operations Review         When OIG' s

                                                     Branch

                                                 abuse.
     did identify some miscellaneous problems. 

     evidence found to(OA)
                        demonstrate  patterns
                            did an audit      of
 care administrative
                                         of foster
     Office of Audit
     costs in Missouri (where claimed administrative costs had risen

     precipitouSly) they found no serious problems of state violatio

     of Federal regulations or guidelines.

                                                            one
The OHDS has alSO presented no information to           allocation,
                                                    document hoW the

consul tant recommendations violate the regulations.
respondent with responsibilitieS relating to cost
 stated that his office hadstudies   being major
                                not found   designed  by the difficulties
                                                   technical  consultants

 wi th the randomc moment              Rather, he explained, the major

 and implemented by the states.               broad.
 problem needing correction appears to be one of eligible cost

  def ini tions which are unclear and too 

                                           guidelines to limit the

  The OHDS has tried through program it  costs.     The most salient
                                               issued policy

                              1985, when

  payout of funds for administrative
   attempt was in November

                     01 (PA- ACYF- 85- 0l) which held that:

 Announcement 85­
        Allowable costs related to foster care may include

       the determination of eligibility, preparation for

       placement, placement and referral costs before a child

       is placed in foster care, but only for children

                                                      does not
                       E.... Referral
        actuallY placed in foster
        for Title IV-
                                   caretoand
                                          services...
                                             determined eligibl

                                                 with their
        include investigations
                          Since or physical
                                those  childror mental

        evaluations....        permanentlY placed out of foster

                                       care, administrative

        families or otherwis
         care are no longer in foster 

         costs for services or other activities related to the

         follow-uP or other permanent placement of children no

         longer in Title IV-E foster care are not allowable.

                                                      eals Board

                       of the De artmental Grant A

   Missouri Decisio                         of cost Allocation

                                                E CAP submitted bY

   In 1985, the Region VII HHS Divisio

                             ThiS amendment
    (DCA) turned down an amendment            would have authorized

                                     to the IV-

    the state of Missouri.
    reimbursement for administrative costs for allE children  whO

                                                     eligible.

    were foster care candidates and paid for the eligibility

                               ectionnot
    determination of children found   to to
                                         thebeDepartmental
                                                IV­
       Grant

     Missouri appealed this rej
     Appeals Board and wasinformation.
                            joined by two other states which

     provided additional                               (MiSsouri
                                                      209, Decisio
     On March 2, 1987, the Board issued    a decisio
                                     0 s
                                         position
     Department of social Services, Docket                    code).

                                                  on every issue
                                              No. 85-              but

      No. 844) which upheld Missouri
                                 definition of a time study
    for

      one (regarding a specif ic
                              (AS interpreting
      The OHDS is responsible for of september the
                                               1987, OHDS has not

                                                   decisio

                                               which clarifies the

      programmatic purposes. 

                                  However,
      issued to the states a policy        the major issues
                                    memorand              C and

                                                            for the

                                    follO    (see Appendi
      meaning of this decision).

      findings can be sumarized as
      full text of this decision):

                         In an
Pa, ents of administrative     amendment
                             costs         to its CAP,
                                    for candidates   whO the
                                                          do not

become IV-E eliqible                            eSs  of whether
state sought to allocate for IV-E payment the cost of
 services incurred before placement, regardl

 IV-E eligi
             le.
 the child waS placed  in foster
                 Included         carecosts
                            were the    or determined
                                   E payment
                                                        to be
 as

                                             of such services
 plan development,alSO
                    court  participation
                        wanted IV-
       and when  these

                                               referral   to

 services. They 

 services were provided to children after they had left

 foster care.


 The Board held that these services are included in the steps

                       goal
 required of the state if   of theis
                          a child  program is to keep

                                     to be eligible for IV-E

 maintenance. Also, a      These
  children out of foster care and costs were
                                   denial    allowed
                                          would serve without

                                                       to work

  against thiS objective.previouslY in foster care   were held

                                                 children,  and
  restriction.  Childr
  to have the same preplacement rights as other 

  the costs of required services to them were also eligible

                                                         Board
  for payment.                      determinations. The
   pa ent for ne ative eli ibilit                       necessary
                                                program.eligibility
   agreed with the state that the costs of negative
   determinations were also required and therefo

   for the administration   of the
              , such costs were     title
                                ruled      IV-E 
for participation.
                                       eligible
   Therefo
   The Board stated that eligible,
                           if negative
                                     theeligibility       Further, it
                                          state woulddeterminations

                                                       have an

    were not found to be 

    incentive to make onlY positive determinations.

    argued that the cost of negative determinations are  differentlY,
                                                             eligible

     for participation under Medicaid and AFDC and that there

     was nO reason whY foster care should be handled 

                                   In rejecting the state 

     Reasonable cost arquments            thin the context of the

     amendments, the Agency argued that acceptance would result

      in incurring unreasonable costs wi

                         its submission  to the Board, the Agency
     IV- E program. In
     theorized that    the purpose  of thehave
                             that should    CAP been
                                                 amendment waS under
                                                     paid for   to shift

     to ti tl e IV - E costsIt called thiS "
a thinly veiled effort to

     title IV-B or XX. E program for money The
                                            thatBoard alsmore

                                                 should
     bleed the title IV­

      rej ected this arguent
     appropriatelY be paid byand
                               theheld that so long as the cost of
                                    state.

                                                        regulations,
      preplacement services and negative eligibility

      determinations are authorized bY statute and        e., the

                           increase
      they could not be rejected  as of programcosts
                                      eligible   costs: i
                                                     simply  because

                                        ow hypthetical ceiling.
      they resulted in an.
      agency could not establish its        have yet to be

 The full implications of thiS
                   persons     decisio

                           contacted as part of this inspection

 determined. Some        s references to the applicable

 maintai that the Board'
                                                            alone.

regulations, as well  as be
                  could   to lessened
                              the legislation, imply actio

                                      by regulatOry   that the impact

of thiS decisio                                          impossible.
others have maintained that the requirements in the Act relating
to the state plan are of such basic importance to the reform
 aspects of the foster care program that it would At be least
                                                         
    one OHDS

 as well as illegal, to limit eligible costs more narrowly than

 the regulations (as currentlY interpreted) do. 

 regional office has withdrawn objections to a cost allocation

  plan that was in ways similar to that submitted bY MissOuri.


 Efficient operation of the program

                                  for the efficient operation of the

 The legislation allowS Federal participation in the

                        The ORDS. has responsibility
 administrative costs necessary              In orderfor
                                                      to ensuring
                                                         measure the

  foster care program.
                                         ( 1) identifY or
  their programs are operated efficientlY,              a common set of
                                                           activities
  relative efficiency of a particular state or ons local foster   care
  program, it would (2)
                      be necessary
                          def ine

                                  a set of
                                     to:
   functi

  desired outcomes;             outcomes; (3) establish    the cost
                                                 This assumes,   of
of

   necessary to ties;
                 produce   (4) compare  states.           s (children

                      andthese 

  these acti vi
   course, that there is a common set of raW materia
   and their families) that is being transformed into an outcome
                                                          In the or
   product.
   To date, these conditions have not been met by ORDS.

                                             runingsuch programs
   absence of common cost figures and outcome measures,  some
    as
   analysts tend to make comparisons betWeen also ask whYcare

                                              the foster  in some

                             Medicaid.
   program and the administrative  cost They

                                        of                    food,
    AFDC, Food stamps and/o
    cases it should cost more for administration and training in
    foster care than it does for the basics of maintenance -

              clothing and other incidentalS.
    shel ter, 

                                                      In the in program
                                                             " foster

     The major point here is that the activities included
     care administration and training costs are not fullY comparable

     to those for AFDC, Food stampS and Medicaid. 

      Inspection on AFDC, Medicaid and Food stamp Administrative

      costs, " it was found that
                  eligibili ty
                                 AFDC administrative
                             determination,           costs essentiallY
                                             redetermination,  check
      incl ude :         assurance, a share of  administrative
                                              For the Food stampoverhead
                                                                  program.

      issuance, quality
                    for emplOyment effort

                                      For Medicaid add the expense of

       and a littl
   to " voucher.
      change " check"
                                                       we believe
      paying vendor claims and managing a variety of cost          that

                                                            containment

                                                       runing thes
                                                                 time,
      efforts, including the establishment of alternative delivery

      Systems and the management of long term care. 

       states capture and claim
                  Because       most been
                          they have   of the
                                          in cost of
 for some
                                             operation
      programs.                     level. actual changes in cost or

       increases from year to year reflect
       effort at the state or local 

Foster care administrative costs include a variety of activities
related to case management and planning that go far beyond the
issuance of a check to the foster parent or the group home. In a
typical state, there are a variety of labor-intensive
professional a tivi ties that must be done to protect the welfare
of the child as well as the rights of the natural   parents. These
would include such activities related to:
     Child Welfare - Title IV-E Eligibility Determination.
     This includes:   (1) collecting . and verifying information
     from family or others which is used in the determination;
     e.g. , income, AFDC, parental deprivation , resources, Social
     Securi ty numbers, birth certificates; (2) filling out and
     processing associated eligibility forms; (3) redetermining
     eligibili ty every 6 months; and (4) preparing for and
     participating in fair hearings and appeals.
     Placement and Judicial Determination
     This includes: (1) preparing and supporting a petition to
     seek custody of a child; (2) developing case and
     comprehensive reunification plans; (3) working with parents
     to develop voluntary placement agreements; (4) working with
     foster parents to prepare them for receiving a   child;
                                                           (5)
     court appearances where the status of a child in custody is
     being reviewed; and (6) completing paperwork and telephone
     calls related to placement or judicial activity.
     Child Welfare - Service Administrative - Children in
     Custody This includes: (1) referral to services; (2)
     development of the case plan; (3) case and administrative
     reviews; (4) case management and supervision; (5)
     recrui tment, approval and training of foster , adoptive , and
     other substitute care families; (6) case conferences and
     permanency planning meetings; (7) investigation , evaluation
     and assessment of the child and family s condition; (8)
     arranging for the provision of preventive or protective
     services; and (9) crisis intervention acti vi ty .
These kinds of activities constitute the basic service functions
(apart from direct therapy or medical services) necessary to
operate a foster care program that meets the needs of the
children and the intent of the legislation. The administrative
cost reviews conducted by OHDS show that 75 to 80 percent of all
foster care administrative costs claimed in the States reviewed
were generated at the county or local level in these type of
labor-intensive activities.

The OHDS Handling of Administrative Cost Issues

Each State is required to develop a CAP which establishes the

system for identifying the costs eligible for participation by

HHS programs. The plan covers many programs besides foster

care ,including AFDC, Medicaid and Food stamps. Foster care
administrative and training costs are quite small when compared
to the costs -of running these larger programs. In FY 1984 the
total Federal share of foster care administrative and training
costs was S147. 5 million as compared with S2. 685 billion for
AFDC, Food stamps and Medicaid. This relative difference may
part explain why, to date , less attention has been devoted to
foster care than to these other prog ams.
In the HHS regional offices, DCA has the responsibility for
approving the CAP with input from the OPDIVs which comment
on the applicability of the methodology in the plans to the
specific regulations and guidelines of their individual programs.
This joint administration of the CAP has its inherent weakness
since the people with detailed program knowledge do not deal with
interagency issues , and DCA , which does, doesn t know the program
details.  Approval of the plan is essentially approval of a
methodology, while for the most part it is up to the OPDIVs to
audit or monitor the implementation of the  plan. If   there are
implementation issues that cut across agency lines, these can go
unattended.   Tradi tionally, the states have been given
considerable leeway to establish their own accounting and
financial systems and wi thin states there are different
structures of county and local administration. Therefore
it is quite difficult to compare expenditures among  states.
From the field discussions with OHDS and DCA , there emerged
evidence of a widely varying pattern of relationships between
them. In  some regions, both program and finance people from OHDS
are substantially involved in review of the CAP , while in some,
only the financial staff are involved. Some regions have one
financial person dedicated to understanding foster care issues
and in others several people have State-focused responsibilities
for foster care and other OHDS programs. In only one case was
indicated that either OHDS or DCA staff had more than a
perfunctory knowledge of the statistics necessary to evaluate the
sampling plans which some States have submitted as part of their
random moment studies.

There also appears to be a differing set of relationships between
OHDS and the States , both among and within individual regions.
In one region visited, financial and program people work closely
together as a team to help the States get every possible
legi timate administrative dollar from the Government , and not a
cent more. In  another region , State personnel reported that
their OHDS financial officer had threatened them with a
never-ending series of audits and checks across all aspects of
the foster care and adoption assistance programs if they went
forward with a CAP that stretched the limits of the
interpretation of the regulations. In another region , an OHDS
financial officer indicated that he had been criticized by
Headquarters personnel for pointing out to the States how they
  couI"d legitimately increase their reimbursement. " You re here to
  save money, not to show people how to spend it.    In most cases

  the relationship between OHDS and the states was described more

  or less as cautiously neutral , with States receiving fairly good

  support from OHDS when the regional office people could answer

  their questions.

  Both the States and the OHDS              regional offices continue t

  questions about exactly what                                           have
                                            administrative costs are eligible

  for reimbursement. The OHDS               Headquarters has been thought to be

  tougher on cost containment,              but there continue to be

  disagreements over what

  decision
                                       is appropriate pOlicy. The Missouri
                        further widens these concerns.

  At the time of the field work , we found that OHDS had no one

  consistent approach to controlling and managing foster care

  administrative costs. In the regional office
  posi tion   is to attempt to determine whether a ,particular
                                                     the most common

                                                               State

, expenditure is legal or eligible under the regulations or program

  guidelines.     With some exceptions , there did not appear to be any

  significant conceptual interest at the regional level in how one

  evaluates State expenditures in relation to program 

                                                                outcomes.
 The methodology developed, by OHDS for the administrat1
 reviews provides for a somewhat broader and more detailedve cost
                                                              look at
 State practices in claiming these cost and included some
 questions about the reasons for increase and variation.
                                                             But the
 reports which were reviewed as part of this inspection tended    to
 stress compliance with existing interpretations of the
 regulations, -with l ittle evaluation of pa,tterns of causation.
 In OHDS Headquarters , there was a strong grouping of opinion

which explicitly stated that administrative costs are growing too

quickly, that the variation between States is unreasonable and

that , for all practical purposes , many States are violating the
spiri t if not technical requirement of the
 argued: If                                          law.
             the Missouri decision says the law andSome  persons
                                                      regulations
authorize broader expenditures , then either the decision is wrong
or the regulations and/or law should be 

was no evidence presented by these peoplechanged.   Again
                                            regarding  the , there

relationship between administrative cost and program 

There were also indications that there was little input outcomes.
                                                            sought

from program or policy staff on decisions to push cost

containment efforts that might have the effect of constraining

State program efforts.

The OHDS is aware of many of the issues which have been raised in

this inspection report regarding both the nature of foster care

administrative and training costs and the difficulties of

managing them. The ongoing series of administrative cost

reviews , which are being jointly conducted by OHDS Headquarters

and regional office staff , has the potential to gather much

information on state practices which would be useful in both
clarifying and rationalizing   policy.During the time this
inspection was being conducted, OHDS established a task force to
advise the Assistant Secretary on the questions raised by OMB as
part of the budget passbook in  1986. The report of that task
force contains a number of recommendations that , if adopted,
would be useful in improving the management of the foster care
program. In May 1987 , a structural realignment of foster care
staff was being conducted to both consolidate and better
coordinate the management operations of this program. Although
the final structure was not available to OIG at the time the
field work for this study was completed, there were preliminary

indicators that it should help to achieve the desired outcomes
sought by the task force.
Legislative Approaches to Cost Containment

In the early stages of this inspection , consideration was given
to including title IV-E foster care administrative and training
costs in the OIG proposal to fund AFDC , Food stamps and Medicaid
administrative costs on a prospective    basis.Eventually, this
was rej ected. Under the prospective paYment proposal , states
would receive a combined amount per recipient for all three
programs , derived from the weighted national average cost per
recipient , corrected for inflation and relative state and local
government labor costs.   Although it was recognized that the
overall difficulties of running an effective and efficient cost
allocation program apply to foster care as well as AFDC, Food
Stamps and Medicaid, there are a number of nonparallel aspects
of these four programs. For AFDC , Medicaid and Food Stamps
the States claim almost all allowable    costs.Therefore, the
national average administrative cost per recipient represents the
actual average cost of running these programs. As indicated
above , the variation in foster care administrative costs actually
represents a variation in charges to the Federal Government.

Also , these costs include a much broader set of services which
may be less uniform among States.
During the discussions with the State and Federal respondents,
questions were raised about the desirability and/or acceptability
of various other proposals to control foster care administrative
costs through legislative change.   Methodologically, these are
the most difficult kinds of issues to deal with as part of an

open-ended, but time-limited,discussion.     This is because few
respondents have more than a general knowledge of these proposals

or have access to the detailed numbers that would indicate

exactly how a particular State would     fare.Also, some persons
wi th a detailed knowledge of a State s day-to-day operations were

reluctant to comment on larger policy issues that might affect

future state revenues.   As a result , more information was
collected on generic concerns than on the positive and negative

aspects of proposal details.
                                             costs.   In general,
state respondents did not have any real sense of urgency     about

the . control of foster care  administrative

IV- E and that under the current
                             share,rules the Federal
                                    regardleSs
                                                         cost. It
they believe that they are charging only eligible costs to title
                                                      Government is
                                                of total

obligated to pay its full 

 was not surprising to learn that the lower the per recipient

 admin trative cost in a state, the more likely its respondents

 were to accept a cap somewhere above their current level of

 expendi tures. But since even the lowest    cost states
                                          increase,       in the

                                                    everyone  appeared

 sample were anticipating some sort of 

                                  none. that were perceived to

  cautious about accepting limitations
  punish some states and reward 


 One senior respondent from containment,
                             a higher cost  state rejected
                                         arguing   that he    entirely

                                                         if would
                                                             the

 the whole concept of cost                      level,             be

 inspection discussions went forward at that 

 reduced to quibbling about the details of a proposalaccepted.    He

                                                           that would

 hurt his organization no matter what change was 

 argued that neither title XX nor title IV-B funds have kept up

 wi th inflation and that the ratio of state to Federal

  expendi tures for social welfare services  hadin
                                                 risen  constantlY

 over the last several years.
                                 Any reduction      Federal
                                                       states.    He and
                                                              funding
 was perceived as another transfer
                           272 was aof  costs to
                                     complex      theof legislation

                                               piece
 others stated that PL 96-                               paYments.
 which required the states to carry out myriad specific actions
                                  sumarized: If   the Feds
 and services to children in order to get maintenance
 Their response can in part be         share.

                                                         
 require,
 then the Feds should pay their fair 

  There seemed to be agreement among state respondents that any new

  legislative proposal containment,
                        should open up any, shouldof
                                    if discussion  have
                                                     thesome sort of
                                                         program

  requirements. cost
  incentive attached to
                          it. Several persons would be interested in
                                care, adoptio assistance and child

  a block grant for all foster 

  welfare activities if it could be tied to some type of 

   self-correcting indicator
                        They such
                             wouldas
                                   benumber of to
                                      willing   children served and

                                                             growth.
                                                  trade flexibility
   an inflation index.
   and reduction in oversight for some limitation in future 

                                          assistance,
   It was argued that if there is a discussion        several
                                                 of new        of
                                                         funding   the

                                                               Among
   methods for foster about
                       care and adoption  

                            the program should be reviewed.

   basic assumptio
   the issues to be discussed
                                are: Why do we pay only for the
   maintenance of poor children whenHow
                                      child
                                         can abuse and neglect
                                             we better           goes
                                                        tie together

   acrosS class and income lines?       XX, IV-B and IV-E?

   the efforts supported under titles 

III.    RECOMMENDATIONS

The recommendations which follow are divided into two groupings:
(1) Short term actions aimed at improving the ability of OHDS to
moni tor foster care administrative and training costs and to
provide accurate guidance and effective assistance to States as
they prepare to document and submit claims for these expenses.
( 2) Long term actions which w ld enable' OHDS to better
participate in the larger discussion of the Federal role in
meeting the needs of foster care children and in promoting child
welfare issues in general.
Short Term Recommended Actions

The interactive incentive system of PL 96-272 has not fully

functioned as anticipated. The unanticipated increase in

administrative costs, coupled with the perceived inability

of OHDS to get full administrative control of the situation has

led to calls for reductions in funding which many not have always

taken into consideration the impact of these cuts on program

activities. The recommendations which follow are aimed at

assisting OHDS in taking greater control of their program and at

providing a more stable environment wi thin which States can

predict and manage the resources necessary to serve their client

population.
It is recognized that many of the problems that OHDS has had

to face are similar to those dealt with by the Health Care

Financing Administration , Family Support Administration , and the

Department of Agriculture s Food and Nutrition Service over the

years with only limited success. In various forums, OHDS has
recognized the seriousness of the issues which it must confront
and is in the midst of a structural realignment for improving the
management of title IV-E programs. Some of the short term
recommendations which follow may have already been anticipated
and begun by OHDS. If so , it is hoped that this analysis will
provide additional logic and support for these activities. The
OHDS should:

       Seek from the Office of General Counsel (OGC) immediate

       clarification of the meaning of the Missouri decision of the

       Grant Appeals Board. It is of particular importance to

       determine which of the findings are derived from the statute

       as opposed to regulations. This would give a better sense

       of which kinds of services and activities funded as

       administrative and training must be prorated on the basis of

       the percentage of foster care children eligible for title

       IV-E maintenance.


       Take the interpretation of the Missouri decision and

       translate it into a policy announcement which details the

      implications for state cost allocation plans and claiming

      methodologies.
      Conduct a systematic analysis of cost allocation plans,
      sampling methodologies and eligibility determination systems
      used by states that have employed the services of
      consul tants who are alleged to unacceptably stretch the
      interpretation of legislation and regulations. states
      should be informed of both the negative and positive results

      of this study.


      Conduct a survey of states to determine the anticipated
      levels of claims for foster care administrative and training
      costs over the next 2 or 3 years and to identify the reasons
      why States anticipate any major shifts up or down. This
      would give a more accurate grasp of the magnitude of the
      short term demand for funds for administrative costs.
      Develop a national protocol for use in the routine

      evaluation of foster care cost allocation plans. Since
      accurate claims for foster care administrative costs are
      surrogate measures for program effort, both program and
      financial staff should be involved in the reviews. This
      would improve the ability to track the level of effort
      invol ved in the provision of foster care and its
      relationship to other child welfare services.
      Revise the methodology used for conducting retrospective
      administrative cost reviews to incorporate any revised
      standards of participation in administrative costs.  The
      questions addressed as part of these reviews should be
      expanded to include a broader look at the relationship
      between cost and program   efforts.The methodology for these
      reviews should be coordinated with the prospective review of
      the CAPs.

Long Term Recommended Actions

Al though it will be both necessary and important for OHDS to
achieve short term gains by clarifying reimbursement policies and
rationalizing the system for monitoring and paying foster care
administrative costs , there remain broader , long term policy
questions to be  solved.  The most crucial and difficult issue
that must be addressed is how to reconcile competing valid
demands for reduction in the Department' s budget and the
development and operation of a unified Federal child welfare
program. In its simplest terms , the questions can be phrased:
What kind of child welfare program does this country want? What
should be the Federal role? How much are we willing to pay for
it?
The OHDS should be prepared to lead the Department'

consideration of the issues.   This will require an interaction
between persQns with both program and financial knowledge.
                                                      ignoring, or

deal with either the cost or the service issue while

                                                   , will be to

worse, misrepresenting the subtleties of the other

end up wi th sol tions that are incomplete and/or unacceptable to
one or another of the constituent groups involved in the larger

discussion. To this end, OHDS should:

     Ensure that any changes in regulations aimed at controlling

     administrative cost take into consideration the potential

     impact on state foster care program operations.

     Reevaluate the overall effectiveness of PL 96-272 in
     achieving the goals of reforming the foster care delivery
     system and encouraging  adoption. Included should be an
     examination of the:
           breakdown of the incentive structure to promote

           adoption and improve child welfare services that

           was included in the legislation;
           continued validity of funding some child welfare system

           services on an income related basis and funding others

           for all children;


           advantages that might be achieved from Federal

           participation in the funding of foster care for

           all children at a reduced rate of participation;

           and
           elimination of artificial distinctions between

           administrati ve and maintenance costs.
 OHDS Response and Recommended FOllow-up


 report are included as Appendix B.
 The full text of OHDS comments on the draft of this inspection
                                      In these remarks OHDS states
    t it" ... believes the report to be a valuable addition to the
 body of knowledge about administrative costs in the Title IV-E
 program and the (the inspection)... makes observations that (OHDS
 has) tried to communicate about the complexity of the legislation
 and state administration...

 The OHDS indicated, however , that the impact of the Grant Appeals

 Board findings in the Missouri appeal is over stated. As 

 September 1987, OHDS has still not issued an interpretation of

 this decision. Therefore , it is difficult to fully determine how

 our restatement and the OHDS interpretation of the decision would
 differ.  The full text of the decision is included as Appendix C
 which the reader may examine to draw their own conclusions.
                                                 

The OHDS comments also indicate that the report of OHDS inaccurate.
                                                           opinion

                                                                 " law
on cost transfer and the role of consultants is also 

These comments maintain that OHDS is only concerned that the

allows states to transfer costs (and consultants to help them do
it) and that those provisions of the law should be reconsidered.
A review of th records of discussions    with OHDS personnel in

                                offices, and with state officials,

Headquarters and the regional 

   nds a wide spread perception that OHDS has considered the

                                     illegal.
 expanded state claims for administrative cost highlY

 inappropriate, if not specifically 

                            We will seriously consider each of the

 The response concludes: "

 recommendations as we continueWeour efforts
                                  have        to begun
                                        already   improve management

                                                       implementation

 of the title IV-E programs.

                       some, recommendations.

 of some, or parts of 

 It    further recommended that OHDS develop
      is                                above.a An agendaresponse

                                                specific  and

 to each of the recommendations listed 

 timetable should be included for those items with which OHDS

 agrees. In addition, there should be a discussion of the reason
 for rej ecting the recommendations which OHDS chooses not to
  implement.
                            ,..
                                          APPENDIX A

                                               Table
                                                                                        per month

Average number of title IV-E foster care1981-1985.
                             Columbia,    children

by state and the District of 

                                                               1'83            l.e4

    .b .m.                                                                                      470
   l..k.                          018                            404            3'5
            455
  Ari z on.                                       370                                         2130'

  Ar k."'...                                                   U.7'7          111 "7
                                  708           17520                          1204            1804
  C.l i +orni a                                                  707                           1087
  Colorado                                        7.s           1105           1100
                                   775                           272                            337
  Co,.,..ct i cut                  273            24.                                          11'.
  D.l a""a" e                                    1."            110.           15'2
  Di.t. of Col.
                                  1812
                                  1151           11'4           13"            1"4             1301
                                                                                               1750
  Florida                                        1211           134            1.02
                                  13.1
  Geo"'Q' a

  "'a"". i i                                                     1.2            15.              1..
   ldano
                                                  171
                                                                4412           410"             420
   1111na1.                       5521           SlD            144             148"            13.1
                                  1.7.           143'            .42                             701
   l,.d1 ana                       .s1            .27                           104             10'.
   10"".                                          1328          1111                            1587
   K.n...
   Kentuckv                       12..
                                  11.7
                                                  12.5
                                                  1541
                                                                1145
                                                                 1.'.           ,ft
                                                                                1153
                                                                                                2115
    oui.1ana                                      1042                                          15.5
   "'a1
                                  1145
                                                  2108           1.28           110
   "'a,.vland                     2334                            .37             .27
                                   501            104'
                                                                 584            0082            .4.2
   ..a..acnu..t. t.
                                  5785            S84t                           1..5            173.
   ..1 ch 1 Qa'"
                                   U."            1342           1802                             7.1
    ..1,.,...at.a                                  835            180             150
    ..i ..1 ..i                     11'                          2114            1748            207.
    ..1..01.'" i
                   cac: i
                                   20"            1.1.                                          . 311
                                    250            25'                            03S             743
    "'0'" t ana                     5'"             .52            023                            214
    N.bra.Ka                                        20'            23'            224
    N.vaaa                          20'                                           447             44'
                                    484             474                          3320            3'77
    New ..all.n        1
                                   1.15            1'"             112            302             524
    N."" J.,...v                                       104                      1..81           17.22
     New "'.M 1 co                                1".01          18434                            142S
                                  20113                                           1524
     N... Vo,.k
     Na,.th Carolina               1115            lA"                                             2.2
                                                       342                        41"             41S.
     Na,.th Dakota                                                                                1003
     Ohio                                              '11          132            '14
                                     "'1                                          135             1238
     Oklaha.a
      O"'89Qn
                                    1314           144
                                                   530
                                                                   145'
                                                                                  5213            ..0
                                                                                                   348
      penn.vlvant.                                                     51'         "81
      Rhod. ls1aru8                     424                                        845                1.2
                                                        44'
      Saut.h Carali na                  521
                                                        432            ,.2         282
                                                                                   11315
                                                                                                       211

                                                                                                   10.3

      Saut.h Dakat.a
                                     1130              14'3           1401                         2814
      Tenn.....                                                       25tt         2M1
       T.Ma.                         2"1               2542
                                                        1'4            252                          251
                                         22'                           241             431             46'

       Utah                              20'                                          ,"4             1" 1,

       v., tfan t
                                     2270              213.           1.13                            1012
       virQinia                                         1021          117'             1203
                                      812                                               774           103'
       W..hi nQta,.                                      050            514
       W..t Vi,.qi"ia                 005
                                        38".            3555           2.74            22"            2435
       Wi.ca,..i"                                                                                1081"3
          Wvotfi"q
                                    02"" 1         100200          ..727          100787
          TOTA
                                   ,.,
                                Table
Average $ Federal share of title IV-E foster care administrative
and training costs per child,    State and the District of
Columbia, 1981-1985.
                         1.81      1.82   1.B3   1.B4   1.BS
      labama                                             174
      la.ka
     r1 zona               Sb              .B4   183.   2.3.
   Arkan.a.                                103           1.b
   Cali oforni a          b40      3.'    2120   23S2   2284
   Colorado
   Connecticut                             74S    837   10S3
   eel aware 
                                           S22
   Di.t. of Col.                           4S3   1451   2331
   Florida                         110     105           472
   aeorqi a              372      2440    2552   2112   20.2
   Hawai i                150      202     217    3.4    400
   Idaho                  125      131     101    12.    174
   I 111 noi.             164      201     6'7    228    147
   Indi ana                                       111    1'4
   Iowa                            827    1064   1215    963
   Kan.a.                          297     484    .58    678
   Kentuckv
   Loui.i ana            242       4.3     632   2830   24.6
   ""ai ne                                1196   1304   1201
   /"arvland              124                           2413
   /"a..achu.et t.        130             2639   2436   236.
   Mi ch i caan          817      1129    132S   1543   lSB6
   /"1   nne.ota         lB7       36S     708   1025   1289
   /"i ..1..1 ggi                          100    106    10.
   /"i ..our i                            1218   2717   1728
   Montana                        166.     B21   1215   114B
   Nebraska              24S       63.     557   14B3   1646
   Nevada                25S               102    108    121
   New Hallel."'ire      107       503     634   1028   1019
   New Jer..v                                     370    775
   New ""eM i Cel                          543    1:n   2341
   New Yorlc             174      2037    2107   2441   22.9
   Nort.. Carol 1                          103           110
   Nort.. Dakota                   125     191    233    336
   0..10                 2.5       131
   Ok la"'o",a                     110    2342   15ge   1225
   OreQon                1015     107.    1422   1170   1147
   Penn.vl vania          373      434     S62    736    6S0
   R"'ode I .1 and                                      1101
   Sout.. Carol i                  113     lS9    317    7.1
   South Calcota          17b
   Tenne..e.
   Te)C                            111     165   2427   1028
   Utah                  200       338     870   1172   164S
   Vermont               240      1414    2b52   2265   234S
   Virqi ni a            106       177     2S2    277    230
   Washi ngton           42S      lS07    1499   1739   184.
   West Vi rqini     a                    1.77   3846   4027
   Wi scon.t n           444       488     .8S   1437   141.
   Wvoml nQ
   Total                           72S           1403   1S1C1
                                         Table 3


Average $ Federal share of title IV-E foster care maintenance
costs per child by State and the District of Columbia
1981;"1985.
                                 1981       1982    1983    1984   198

   Alabama                                  1376    1381    136.   lS06
   Ala.ka                        3'63                       421    6000
   Ari zona                      1271      2736             2341   260
   Arkan.a.                                1130             131    1178
   Cali       orni a             2746      2.6'             3129   3281
   Colorado                      1406       1842            131    1392
   Connecti cu.t                 1961       1900    177     1823   1810
   Delaware                      1242       1270    1265    1353   1306
   Di.t. 04 Col.                 3320      36.6     3119    3042   3792
   Florida                       1361               1650    1402   2092
   GeorQi a                      1333       1673    2481    2430   2406
   Ha_ai 1                         932      120.            1087   1286
    Idaho                                   1377    1441    1486   1060
    Illinois                     1209       1219    1160    130    137.
    Indi ana                                600              628    627
    Iowa                                   1454     1524    158    1692
   Kansas                        2205      2143     2442    2"4    2587
   Kentuckv                      1196               16S8    1842   2866
   L.o'-i.i ana                  172.      3123     3..6    2476   2878
   ""aine                        1914      2051     1963    2292   212
   ""a.. v 1 and 
               1295       1321    1443    1605   2165
   ""a..achusetts                4872      2701     3348    3088
   Mi ch i qan                             3193     3427    3936   4254
   Mi nnesota                    2585      2431     1978    289    a-u
   M1..i..iDDi                   1067        .84     434    1190   1300
    I'i ..ou.. i                  965      1014             1779   1471
   Montana                       3095      3195     2805    3067   32.6
    Nebra.ka                     1984      2080     2084    2124   2236
   Nevada                        1821      1676     1496    1496   1607
   Ne- Halloshi..e               1206      1224      994    le65
    Ne- Jersev                   1165      1334     1728    1577   1597
    N... ""ex        i co         476      1260     2143    1949   2441
    Ne- York                      221       563     4945    5362    207
    NCNth Carol i na             1119       1165    1308    128    1334
    North Dakota                 1881       2254    2443    2575   2786
    Ohio                           896              122     1293   1672
    Oklaho..                     1472       1"4     27'9    248    2201
    OIeoon                       2510       2337    2490    2743   2762
    Pennsvl vani a               5248       5900    4057    4864   4388
    Rhode I.land                 2176       2480    19.1    1593   2540
    SOu.th Carol i na            1057       1074    1131    1270   13-..
    South Dakota                 1451       U.94    1754    1100   1964
    Tenne.s.e                    1129       1115    1129    1423   1563
    TeKas                        2088       2098    2027    2352   2468
    Utah                         1793       1-'64   15"     1559   1926
    Ve..mont                                2329    2714    2205   2516
    Vi"'Qinia                    1145       1193    1292    1281   13-.3
    Wa.hi nCjton                            1583    1947    1.5    17.5
    We. t Vi.. q i n        ia   1830       2225    2348    3336   31-.8
    Wi .con.i n                  1972       2307    2605    3118   3313
    Wvominq                      163-.      2205    258-'   2158   1570
    Total                        2703       3006    280     2955   3083

                                                                           .\ 3

                                Table 

Ratio, $ Federal share of title IV-E administrative and training
costs/$ Federal share maintenance costs , by state and the
District of Columbia, 1981-1985.

                         1981       1982   1983   1984    198

     Al

     Al

     A,. 1   zona                                        1. 13
     A,.kan.a.
     C.lifo,.nia                                  O. 7
     Colo"ado
     Conn.cti cut                                        O.

     D.la.a,..
     Di.t. of Col.

     Fl o,.i da
     G.o,.qi a
     "'a.ai 1

     Idaho
     11li. n01.
     Indi ana            O. 1
     Io.a
     Kan.a.
     K.ntuckv
     L.oui.1 ana
     I'a1
      a,. v 1 and
     1'                                                  1. 11
     I'a..achu..t t.

     I'l chi e;an
     I'i nn..ota                                         O. 4
     l"i ..i   ..i ooi                                   O. OS
     I'i ..ou,. i                                 1 .

     I'ontana                                            O. 3
     N.b,.a.ka
     N.vada

     N.. "'a",08hi,..

     N.. J .,...v
     N.. "'.M 1 CO
     N.w Yo,. k
     No,.th Carol1na
     No,.th Dakota
     Ohio
     OklahCMa
     O,..oon
     P.nn8vlvan1a
     Rhod. I.land
     South Ca,.011 na
     South Dakota

     T.nn.....
     T.M a.

     Utah
     V.,.mont
     Vi,.qinia
     Wa.h1n;ton                                           1.0:
     W..t Vil"qinia                               1. 1    1.

      Wi .con.i n
     Wvoml ne;
      Total
                                                                                                                                 '.
                                                          .t r    Ll't LI.."'a. 


                                                                                                           0"'("
                                                                                                                                               foIH S.
                                                                                                                                                         r'flr
                                                                                                            Hurnar             "t',uU
..,0' 	
                                                           ttl'            "'ER\' ICE
                 OErART.Y.E	
                                 or HlAlTH 


                                                                                                             ASSIS:iI-,t S,:
                                                                                                                                      ..1.1'


                                                                                                             Washlf1   lt.;"
                                                                                                                                        C 2C2C



           SEP
                    , 6 9J

                          Rich        rd p. 

                                                    Kusserow
          TO:              Inspector General


                           Acting Assistant secretary

          FROM:                 for Human Development serv 





                           OIG Report on Foster care Administrative ;osts

          SUBJECT:	
                                                                                                      rV ice s (ORDS
                                                                                                               
     J
                                                                                        lopmen t se
                                         f Ruman DOve              to the body of

                          the Of f ice 0
           In g ener a l.                                                     to 0 the r s
                                                           the Title IV-Eteprogram.

           believes the report to be a valuable additio
     to commun ica
           knowledge about                  we have
                                administrative
                              vat ions that    coststrinied

                  ke s obse r                                               We.

           It ma                                 asS istance programs.

                                                                    irmsadministration

                                                                         the following

           about the complexity of the legislation and State
           of the foster care and adopti

            spec if ically. are pleased that the report conf                   for
            points:                                         opened the door
                           The language of the legislatio
                                                                  indicatOrs.
                          States to make claims beyond these minimal          " The
                                                                     expectatiOns.
                                            e of the statistical
                          with regard to s                                                             the
                          most serious difficulty with using these variables as

                          program performance indicators is that the Federal                     actual    cost

                                                                                                       share

                          of Ti tle IV-E administrative costs only represents 

                           charges	 to the Federal Government
                                                          programs..
                                                              and not the 

                                                                            . the degree to which a State
                           of running thes	                                                  in the laieste rfor
                           claim includes all eligible administrative       te  r percentage  costS would
neec
                                                                                       tbeir strateg
                           va r y over time. with a grea
                            years. . . States vary considerablY in
                            claiming costs and in tbeir perceptions regarding the 

                            for. or tbe advantages of. maximiZing tbeir federal

                               reimburse.ent. .
                                                                pounded wben tbe is Federal

                                                                                    corrected

                                Tbes  problems are furtber maintenance
                                                             c	          costs 
        numb.
                               sbare of administrative or

                               for tbe number of IV-E cbildren served. because tbe 

                               of IV-E cbildren does not reflect tbe same pbenomenon 

                               each state...	                        is impossible to make

                                                                                    among
                                                                 s for va
r iat ion
                                 Given problems witb tbe data. it
                                Systematic judgements tbe reason
                                                       abOut  tbe determinantS
                                                                    iad. or tbe of

                                adm in is tr 

                                                     at ive cost.                 rate of
                                States wi tb a partiCular                               time per
                                growth over time.
                                              ,.\ 

Page 2 - Richard P. Kusserow

                                                                  ise as

                           the report that we would rev

There are some sections of 

follows:
       In gener al, the impact of tiH
                                      Gr an t         Appeals Board (GAB)
       findings on Missour     i is overstated. Interpretatioleftofto

                                                                    the

       GAB decision for programmatic  purposes should be

                                  in an OIG rev iew wh ich may be

       OHDS and should not appeara " Federal" interpretatio . A
       construed by outs iders as
       simple restatement of the GAB decision would be more
       appropriate. (pages
 10,       11, 12)
       We do not character ize the proposed organizational changes

       in the Administration for Children,
                                  prefer to Youth anda Families
                                            call it             as a

                                                       structural

       major reorganization. We
       realignment for improving the management of Title IV-E
       programs. (page       18)

           In regard to OHDS opin ion on transfer of costs to the

                                           is inaccurate in two

           Federal government, the report

           instances:
               The language preced ingthe ACYF commiss ioner I s quote on
               page 9 implies that OHDS officials believe that States
               are doing something wrong in transferr ing costs to the

               Federal government.


               The same theme is repeated regarding  consultants

               assisting States to "unfairly " claim unallowable costs.
                                            States to transfer costs
           In both instances, the report misreads the OHDS complaint

                                         allows                          (and
           that the current law 


           consu          tants to help them do it) and that those provisio

                                   idered.
           of law should be recons 

                                      " should read " 6 months " and the
           On page 3, the " 12 months" 18 months.
            24 months . should read

 We will ser iously cons ider each of the recommendations as we

 continue our efforts to improve management of the   Title IV-E

                                                   of some, or parts

 programs. We have already begun implementatio
 of some, recommendations.

                                     Ph i 11 ip   N. Hawkes

                             APPENDIX C





               DEPARTMENTAL GRAT APPEALS BOAR

           Department of Heal th and Human Services

SUBJECT:   Missouri Department of              DATE:   March 2, 1987
             Social Services

            ocket No. 85-209

            ecision No. 844


                           DECISION

The Missouri Department of Social Services (DOSS, State)

appealed   he decision of the Regional Director, Region VII
 (Agency), of the Department of Health and Suman Services
affirming the disapproval by the Region VII Division of Cost
Allocation (DCA) of the State s proposed amendment to its cost
allocation ulan (CA) for services under Title IV-E of the
Social Secu rity Act (Act). The central issue raised by this
appeal is whether the State can amend its CA so as to claim
certain activities performed by DOSS as administrative costs
under the IV-E program. The Regional Director had found that
an amendment authorizing reimbursement of these activities
could not be approved because the activities were outside
 the scope of the IV-E program. In a related finding, the
 Regional Director concluded that definitions for time study

 codes used in the proposed amendment were inconsistent with

Agency requlations.


For the reasons described below, we find that the disputed

activities themselves, if properly defined by the State in

its plan, are reimbursable under the IV-E program as admin­

istrative costs.  The activities are proper and necessary
administrative activities under the statute and regulations

and indeed are specifically identified without qualification

under the requlations as reimbursable administrative costs.
We also find, however, that the Agency may require changes in

the def ini tions for time study codes in the State I s proposed
amendment to ensure that the codes are consistent with the

regulations and to ensure that they are as specific as

necessary for correct implementation in the field.
In the course of this appeal the Board received submissions in
support of the State s position from the Arkansas Department of
Human Services, the Maryland Department of Human Resources and
the West Virginia Department of Human      Services.
                                                 These state
agencies (Intervenors) alleged that they had either submitted
or were in the process of submitting CAP amendments similar in
!! !!. ).   
                !!.

                              - 2 ­


whole or in part to those at issue     here. The Board deter­
mined that these state agencies had a " clearly identifiable

  d substantial interest in the outcome of the dispute " and

admitted thelr 8ubmissions into the record as intervenors in

accord wi th 45 CFR 16. 16 (b) . The Board gave the Agency the

opportunity to respond to these submissions.
Statutory Background of the IV-E Program

The Child Welfare Services program has been a part of the Act

since the Act' s inception in 1935.   In 1968 Congress trans­
ferred this program to Ti tle IV-B of the Act (sections 420-425
of the Act).   Historically, Ti tle IV-B has provided federal
grants to states to establish, extend, and strengthen child
welfare services. The services are available to all qualified

children, including the handicapped, homeless, neglected, and

dependen t .
The Adoption Assistance and Child Welfare Act of 1980, Pub. L.
96-272, was enacted o June 17 , 1980. In addition to amending

Title IV-B, this legi' slation established a new program, the
Title IV-E program, Federal Payments for Foster Care and

Adoption Assistance. The foster care component of the aid

to families with dependent children (AFDC) program, which had

been an integral part of the AFDC program under Ti tle IV-A of

the Act, was transferred to the new Title IV-E, effective
October 1, 1982.
Title IV-E (42 U. C. SS670-676, sections 470-476 of the Act)
had as its impetus the belief that the public child welfare
system responsible for serving dependent and neglected children
had become a holding system for children living away from their
parents.  Congress intended Ti tle IV-E " to lessen the emphas
on foster care placement and to encourage greater efforts to

find permanen homes for children either by making it possible

for them to return to their own families or by placing them 

adoptive homes.   S. Rep. No. 336, 96th Cong., 1st Sess. 1

(1979), repri ted in 1980 u. S. CODE CONGo & AD. NEWS 1448,
1450.
Title IV-E enables each state to provide, in appropriate cases,
foster care and adoption assistance for children who otherwise
would be eligible for assistance under a state s approved Title
!V-A plan (42 U. C. S601 
       ) or, in the case of adoption

assistance, would be eligible for benefits under the Supple­
mental Securi y Income program of Title XVI (42 U. C. S1381
           !n order to carry out the provisions of Title IV-E,
appropriations made avallable for that program are to be used
               ..

                                - 3 ­


for making payments to those states which have submitted, and

had approved by 
       he DHHS Secretary, state plans under Ticle
IV-E.            . S671.
                  42 U.        Congr ss identified three separate
        egories of expenditures for which states are entitled to
FFP under payment formulas set forth in 42 U .       C. S674: foster
care maintenance payments for children in foster care homes or
child care ins   itutions         (42 C.  C. S672): adoption assistance
payments (42 U. S. C. 5673): and payments " found necessary by the
Secretary for 
         he proper and efficient administration of the
State plan                  42 U.   C. 5674(a). The last category,
expendi tures for plan administration, is subdivided to cover
the cost of training state personnel to administer the IV-E
program and all other administrative expendi     tures.       42 U. S.
S6 74 (a)       (3). 1/

The Agency s regulations implementing Title IV-E are codified
at 45 CFR Part 1356 (1983).
The Cost Allocation Plan Process


A state participating in the various categorical programs under

the Act, including Title IV-E, is required to make determina­
tions as to the amount of commonly incurred expendi tures, such
as staff time, that are attributable to each program the state
administers. A state is required to submi t a plan for cost

allocation to the Director, DCA, in the appropria e DHHS

regional office. 45 CFR 95.     507(a).
                                      This cost allocation plan
is defined as " a narrative description of the procedures that

the State agency will use in identi fying, measuring, and
allocating all State agency costs incurred in support        of all
programs administered by the State agency.    45 CFR 95. 505.
The CAP must contain sufficient information to permit the DCA

Director to make an informed judgment on the correctness and

fairness of the state  s procedures for identifying, measuring,
and allocating all costs to each of the programs administered
by the state agency. 45 CFR 95. 507(a) (4).


i/  For foster care maintenance assistance payments and adop­
tion assistance payments, each state with an approved plan 

entitled to a pa ent equal to the federal medical assistance

percentage (as defined in 42 U . C. S1396d(b)) of the amounts
expended by the
costs are rei
                    state.
                bursed.
                         For staff training, 75% of a state
                        For any remaining administrative
expendi tures, 50% of the costs are reimbursed.

                             - 4 ­


Amendments to a CAP may be submi t ted to DCA (45 CFR 95. 509),
and, if DCA disapproves the amendment, a state may seek recon­
sideration of- the DCA decision by the DBBS Regional Director.
45 CFR Part   75. k Regional Director s negative determination
may be appealed to the Board. 45 CFR 75. 6(c).
Factual Background


Pursuant to 42 U.  C. 5671, the State had an approved plan for

the provision of Title IV-E services. On September 25, 1984,
the State submitted to the Region VII DCA an amendment to  its
CAP then in effect. State Appeal File,  Ex. A.    The propose
CAP amendment took the form of a series of tt time study codes
describing various administrative activities performed by
Children s Services field workers of the Missouri Division
of Family Services (DFS). Under the proposed amendment, the
Children s Services workers would record the time spent on
activities described by each code during a designated sampling
period.  These records would then become the ba.i. for the
State s allocation of costs among various programs. Code 3
of the proposed amendment concerned the provision of social
services which would not be charged to Title IV-E.    Code 4,
entitled " Child Welfare Service Administration, N listed
examples of administrative costs which would be allocated to
Title IV-E.
On May 29, 1985, the Director, DCA, rejected the proposed

amendment and found that the definitions used for the time

study codes charged to the IV-E program included unallowable

social services which should be allocated to either the Title

IV-B or Title XX (Social Services) programs. State Appeal
File, Ex. B.  On September 9, 1985, the- Agency s Regional
Director affirmed DCA' s decision.


While the original CAP amendment was being reviewed by the
Regional Director, the State suomi tted a revised CA amendment
to DCA. The DCA Director, on September 23, 1985, approved a
version of the State s CA with revised time study codes. The
plan was given the same effective date as the effective date
of the original amendment (July 1, 1984). The State, however,
maintained, with its appeal to the Board, that the origlnal CAP
amendment .hould have been approved.
                                     - 5 ­

 Issues in Dispute

 The issues raised by the State in its appeal brief are as

 follows:



            whether administra ive costs, such as those for plan
            development, judicial determinations and referr ls, are

            allowable under Ti le IV-E if incurred for candidates for

            IV-E cash benefi ts who do not become recipients:




2/  In addition to its substantive arguments, the State
contended that it was legally entitled to approval of its

CAP amendment on procedural grounds. The State alleged that
the Director, DCA, had failed to comply wi th the mandates of

45 CFR 95. 511 (1983) and that, accordingly, the Director was

estopped and prohibi ted from disapproving the CAP amendment.

The State alleged that it had submitted the CA amendment
on September 25, 1984, and the DCA did not respond until

December 20, 1984 when DCA indicated that the State s infor­
 ation concerning the amendment was " incomplete.   The Agency
disputed the State s interpretation of 45 CFR 95. 511(a) and

denied that the absence of the written notification constitutes

approval of an amendmen 


                employing the Board I s procedures to reverse the
I n add i t ion to
Agency s decision, the State sought a preliminary and permanent
injunction in a United States district court requiring DBBS to
take the necessary administrative action to release funds
claimed by the State for fiscal years 1983, 1984, and 1985
pending the ou tcome of its appeal before the Board. The
District Court ruled that DCA' s failure to respond in writing

within 60 days did not constitute " deemed approval" of the
proposed plan amendment, and further refused to adopt the
State s suggestion that section 95. 511 could be interpreted as
providing for such a " deemed approval.     State of Missouri
Bowen , No. 85-4592-CV-C- 5 (W. D. Mo. April 1, 1986
        an Order to Develop the Record, the Board suggested to the

parties that it would appear to be bound by the court' s ruling
on the applicability of section 95.
that it      was
                                          511. The State responded
                 appealing the district court' s decision to the

u. S. Court of Appeals for the Eighth Circui t and requested
that the Board continue its deliberations on this point in the
possibility that a Board decision in the State s favor would

render moot the need for further appellate proceedings.

As a United States district court has ruled on this specific
procedural point and the State did not provide any reasons why
the court' s ruling was wrong or why it should not be bindlng,
we rej ect the State s procedural argument.
.'         . .           '-'   .'.   ....----   .... ...,.. ...   ..-"   ,.,""=-   ""--   ' "". ",.          ''. ''-   '._''--''      -,      -.- .,,. -,- ---..-._--_-,---.....   ,,- , ",   ~~~    ....   -, .




                                                                                               - 6 ­

                      whether the costs associated with negative determinations

                      of IV-E eligibility qualify for FFP under Title
                                                                      IV-E: and

                  --- whether definitions in the Sta
 s time study code for

                      unallowable social services and allowable administrative

                        activities are impermissible.
                  In the course of this appeal the Agency raised the additional
                  iss e of whether the administrative costs resulting from the
                  State s amendment, if accepted, would be unreasonable
                  within the context and intent of the IV-E 

                                                                                                                                   program.
                        Whether administrative activit es, such as those
                                                                          for
                        plan development, court parti ipation and referrals,
                        are reimbursable under Ti tle IV-E if undertaken for
                        program candidates who never become recipients.
                  The State s proposed CAP amendment sought to allocate to Title

                  IV-E administrative costs incurred prior to the actual place­

                  ment of a child in foster care, regardless of whether the child

                  ul timate1y becomes a recipient of IV-E cash benefi
                  incurred after a foster care placement has been      ts, and costs
                                                                     terminated.  3/
                 The specific administrative activities at issue
                                                                           develo
                 ment of the case plan, preparation for and participation in                                                               are:
                  judicial determinations, and referral to 

                                                             services. The

                 Regional Director rejected the State s proposal,     holding that
                 the only administrative costs reimbursable under Title IV-E are
                 those which relate to children who go on to become recipients
                 of benefits as specified in 42 U. C. S672.
                                                                 This section
                 provides that a state shall make foster care maintenance
                 payments for a child who has been removed from a home of a
                 relative either as the result of a voluntary placement
                 agreemen t or a judicial determlna
                 Agency, if a child is a program candidate According to the
                                                              and does not ever
                                                                                                      t ion.




                 3/  The State reasoned that a child who has been in foster care
                 can be just as much a candidate for foster care p1acemen
                 child who has not been in placement.                      as a




     -"v                                                                                              --.c                                                                                      """1 .._
                                   - 7 ­

 become a recipient of cash benefits, no adminlstrative                  expen­
 d:   ures incurred for   a t   indl v idual   should be reimbursable.



The State maintained that the Agency s focus on section 672
eligibility and the child I s removal from his heme confuses the
standard for FFP in foster care maintenance payments wi th the
standard for FFP in administrative costs under the IV-E
program. The State argued that the program established three
distinct categories of expenditures which qualify for FFP:
foster care maintenance payments,
                                    doption assistance payments,

and payments necessary for the proper administration of the

IV-E state plan. The State insisted that the issue raised by

its CAP amendment was whether the specific activities were

allowable administrative costs -- whether they were necessary

for the proper and efficient administration of the state plan

-- regardless of whether they were provided to candidates who

became recipients.


The State explained that there are administrative steps

required by the program which must be taKen before a child

can be removed from his home and placed in foster care and

thus become eligible for benefits. The State is first required

by its State plan to taKe reasonable efforts to prevent or

eliminate the need for removal of the child from his home or
to maKe it possible for the child to return home. 42 U.
 671(a) (15). If these efforts fail, the State is then required
to develop a case plan and a case review               system.
                                                  42 u. s.
S671(a) (16). As a necessary step in removing a child from the
home, the State may have to prepare for and participate in a
judicial proceeding. The State asserted that the Agency ha


4/   Although the Agency included in its appeal file (Ex.
a policy announcement (PA-ACYF-85- 0l, effective November  13)
                                                           18,
1985) in support of its position, it did not rely at all on the
announcement in its arguments before the              Board. In
the policy announcement could not be binding on the any  event,
                                                     State
the first two years covered by the proposed plan amendmentfor
years beginning July 1984 and July 1985), since it was not
issued until November 18, 1985. Moreover, to the extent the
policy announcement conflicts with the applicable sta

                                                       ute and

regulations for any subsequent period, the Board must give
precedence to the sta:ute and regulations. As we discuss
below , the State s positlon is fully supported by both the
sta ute and the regulations.
                                   - -




                                     8­
  :horized reimbursement for administ a:ive activities to carry
 ut these ste      by the issuance of 45 CFR 1356. 60(c)(2), where
such act i vi ties as referral to serv ices, prepara t i on for and
participation in judicial determinations, and development of

case plan a e listed as allowable IV-E administrative costs.
We find that the disputed activities are in fact required by

the progra and are s ecifically identified by
                                                   the regulation
as allowable with absolutely no indication of the restriction

the Agency here seeks to impose. Indeed, several other
examples of allowable administrative activities listed in the

regulation are not directly tied to individual cash recipients
under the program       ., licensing of foster homes and rate

set t ing) . More importantly, however, the program statute and

regulations =onsistently recognize that the acti'vities in

quest ion would be proper admi nistrat i ve costs for program
candidates.
As the State argued, these activities are administrative

steps taken 
  y the State under its program to bring about

foster care placement and hence eligibility for oash benefits.
Consequently, where the State performs one of these activities

in anticipation of qualifying an otherwise eligible ohild for

fos ter care benef its, the State should rece i ve re imbursemen t
for the activities as a necessary administrative          cost.
                                                             The
program required the State to take the aotions irrespeotive of
whether the child subsequently is determined eligible for IV­

benefi ts or   not.
The Agency has agreed to rei burse identical activities
provided prior to removal from the home for those children

who ultimately become eligible. The State, however , provides

the activities in question  not knowing whether a ohild wlll

be removed and should not lose reimburse ent simply beoause a
chi ld is not removed. (The reas on a chi ld is not removed, for
example , may be that the oase plan led to a reassessment of the
child' s home situation or a court refused to remove a ohild
from its home in spite of the State' s efforts in judicial
proceed i ngs. )   The State' s CAP would all oca   te these oos
to IV-E only for ohildren who are candidates for foster care
benefits and who would be reoipients but for the oompletion of
these administrative steps and the eligibility determinati
  self.  The Agency loses sight of the fact that, in order to
ensure that every eligible individual becomes a recipient, the
State will have to engage in activities for candidates who will
   er become recipients. These activities are just as much

necessary activities for the program as those provided for

children who do beoome program recipients.
                                                                - 9 -




of the disputed act ivi require
Tne Agency would here    ties, such
                                 that
                                    asthe State allocate
                                       referrals and caseall

                                                          plan
                some otner federal program, such as those
development,

authorized by Titles IV­
                           B or XX. Yet the Agency nowhere
explains precisely what relationship these costs ther program

                                                    would have

:0 another program and why allocation to the 


should be mandatory in the absence
                           We see noof reason
                                        statutory
                                              why or
                                                  theregulatory

                                                      State

authority to that effect.           s elsewhere when they are

must be forced to allocate the cos

                               ill IV-E requirements. il

speci f ically                   undertaken to fulf
The Agency speci fically  singles out case development activi­

 ties as not deserving reimbursement because, according to the

 Agency, the statutereceiving
                      authorizes reimbursement
                              foster            for those
                                      care maintenance     services

                                                       payments.
 only for children'      (42 use S671(a) (16)), however,  does not

 The provision at issue 

 specificallY concern reimbursement but rather requires that an

 approved state plan provide for the development of a case plan

  (as defined in section 675(a)) for each child receiving payments.

                                       further support to the

   51 The regulatory history provides

  State s position  that it may claim these activities ion
                         E.                                which
                                                        under

                                 60, the Agency stated:
  Title IV-    In  the preamble to the proposed provis
  eventually became 45 eFR 1356.                                                              fulfill-
               The costs of conducting the activities essential to 

               ing the plan requirements idered
                                             under Sections  471 of
                                                    as necessary  forthe
                                                                      theAct

                                                                           proper
               L 45 eFR 1356. 801 are cons       of the State plan under and
                                                                           Title
               and efficient administratio                                     the
               IV- E, except for the thnonrecurring costs of adoptio
                                          the reporting requirements which are

               cost of complying wi
               deemed to be child welfare services      costs and
                                                 Furthermore,  the may
                                                                   costsnot
                                                                          of
be

                reimbursed under this part. 

                direct services to children, parents or foster parents

                to ameliorate personal problems and which go beyond the

                activities specified in    the
                                         The    regulation
                                              regulation    are to besuch
                                                          delineates   funded

                                                                            social
                  from other programs.
                  service costs from those required
                  sions under Title IV-
                                                     to these
                                            Apart from          E.
                                                         carry exceptio     it is
                                                                out the provi-
                                             ties prescribed in the     law and
                  recognized that the activi                    t Ti tle IV-B,
                  the protections provided underThe
                                                  Section  427 , therefore,

                                                     regulatio                                  ro   rams
                  42 U.               C. S6271 may overlap. 


                     rovides flexibilit to
                                                                     the States to choose which
                                                                                       for char In    and
                   to char e 

                               hese costS and the method used

                   cla lml ng cos 


                                                                                31, 1980) (emphasi

                   45 Fed. Reg. 86817, 86826 (December
                    added) .
                                                            ..

                                                            - 10 ­


The statute, in defining " case plan, " clearly envisions that a
  ate may begin to prepare a plan for program candidates prior
to their actua placement in foster care, and the Agency did
not argue otherwise. Indeed, as already mentioned, the Agency
reimburses for case plans prepared prior to removal if the

child ultimately becomes eligible for benefi ts. The prepara­
tion of case plans prior to placement, moreover, appears to be
fully cons istent wi th the purpose of the statute. It means
that the case plan is prepared at a time when options may stlll
exist as to placement and is not merely a justification on
paper of what already has occurred. The legislative history
strongly suggests that the case plan requiremen was to be more
than a mere paper requirement. S. Rep. No. 336, 96th Cong.,
1st Sess. 1 (1979),   reprinted   1980 U. S. CODE CONG. & AD.
NES         1448.
             Thus, as long as a state is acting within the
discretion afforded by statute, regulation, its own state plan,
and Agency policy guidance by preparing case plans in advance

of the removal of the child from the home, we find that the

State is performing an activity necessary for the proper

administration of the program even if the child 
                     ltimately
does not become a benefit                           recipient.



The program provisions authorizing " referral" activities

provide a similar case in point. Referrals support the

program goal of taking reasonable efforts -­


           (A) prior to the placement of a child in foster care, to

           prevent or eliminate the need for removal of the child

           from his home, and (B) to make it possible for the child

           to return to his home.        (42 U.  C. 5671(a) (16))

Obviously to achieve this statutory goal the State would have
to engage in referral acti vi ties for program candidates, as
well as recipients. Moreover, if the referrals are successful,
as would be hoped, the child never becomes a program recipiept.
Since the regulation clearly authorizes reimbursement for
referrals and since referrals so clearly further a program




  /If in prepar ing the case plan, the State decides that the
child is no longer a candidate for foster care cash benefits,
any subsequent case plan activities would not be chargeable to
Title IV-E.



                                                                                  CIO

                                  11 ­
 goal affecting only program candidates

 Why the State' s efforts for such          , we see no reason

 reimbursable
                                      indi viduals
                    der the program. The Agency, ofwould not be
 1 imi t reimbursement to only those
                                                      course , can
                                       indi viduals the State

 reasonably views as candidates and to only those referrals

       ecifiCallY designed to further the statutory goal of section

  7 1   ( 1
              ). 1/
 As a final pOint showing the unreasonableness of the Agency'
 position , we agree with the Intervenors that the result of
 adopting the Agency' s position would be to deny FFP where the
 purpose of the IV-E program -- to keep children out of foster
 care where poss   ble -- was achieved. noted above , one of
 Congress' concerns was the warehousingAs  of children away from
 their natural homes with little hope of permanent
                                                      placement.
 Thus , for example , se tion 671(a)(1S) calls for reasonable

 efforts to prevent the removal of a child from his natural
 home. Yet the Agency' s interpretation would have the opposite
effect to that intended by Congress.
                                          Under the Agency'

Position , a state could be deterred from    taking preventive

efforts such as referrals since 

receiving IV-E reimbursement if it would have no assurance of

                                   it did , since no reimbursement

would be recei ved for referrals that   prevented removal of the
 child.   On the other hand , a state which incurred administra­
tive costs prfor to the removal stage would have the incentive

if it wished to claim FFP for its administrative activities

   rsue removal of a child from his home even if other options
 , to

to removal were available. Certainly
                               
         this would not seem to

have been Congress I intention when it enacted the Adoption

Ass i stance and Child Welfare Act.

On tbe basis of the foregoing, we find that
                                            , under the statute

and existing regulations , the State should be able to receive

reimbursement for the disputed administrative
                                                 activities.
II. Whether costs associated with negative determinations

    of IV-E eligibility are reimbursable under Title 

                                                         IV-E.
The State's proposed CAP amendment sought to allocate to Title
IV-E the costs of making all eligibility determinations
positive and negative , for-he IV-E program.
                                                        , both



7/ Furthermore , as we emphasize
the State is limited specifically in part III of this decision,
                                   to the referral service

       and may not claim counseling services under the aegis

of a referral.



                                                                        ell

                                          - 12 ­


    The Agency rejected this proposal, holding that costs

    associated with the determination . of IV-E eligibility must

    be allocated-- to Ti tle IV-B and Ti t1e XX on the basis of the

    percentage of Ti tle IV-E to non-IV-E children in the State ' s
    custody. As with the question of pre- placement administrative
    costs, the Agen i contended that only administrative costs
    related to children eligible under 42 U .     C. S672 are allowable
    IV-E administrative          costs.
                                   The Agency claimed that it was
    longstanding policy fer the IV-E program not to allow reim­
    bursement for negative eligibility determinations, .with
    re imbursement for tho e el ig ib i      1 i   ty determinations for chi ldren
    provided foster care under a program other than IV-E charged to

    that program.


    The State argued that toe determination of eligibility, be
    it positive or negative, is an administrative cost " necessary
        . for the proper and efficient administration of the State
    plan. The State argued that the Agency by regulation has
    explicitly authorized eligibility determination as an allowable
    administrative cost:

        The determination and redetermination of el igibil i ty,

         fair hearings and appeals, rate setting and other costs

         directly related only to the administration of foster

         care program under this part are deemed allowable

         administrative costs under this paragraph. They may
         not be claimed under any other section or Federal
         program.
         4 5 CF   R 13 56 . 60 ( c) ( 1

    The State emphasized that the IV-E program is an entitlement

    program, and as such, the determination of who is and who

    is not eligible is an indispensable part of the foster care

.   program. The State asserted that the Agency routinely   reim­
    burses all eligibility determinations in such programs as
    AFDC and the Medicaid program. The State pointed out tha
    the Agency had the opportunity to explicitly list negative
    eligibility determinations as unallowable IV-E costs in
    45 CFR 1356. 60 as it did other costs, but failed to do so.
    Finally, the State questioned the logic of the Agency

    interpretation of the statute and regulations. The State
    reasoned:
         If only " affirmative " eligibility determinations recelved
         FFP, there would be a great incentive on the part of the

         states in borderline situations to make " positive " deter­
         minations, or to not be as diligent in ascertaining the





                                                                                 C 12
                                      - 13 ­


          information needed to make " negative " determinations,
          since only in " positive " eligibility cases under DCA'
          interpretation would the states receive FFP for their

          e1 igibili ty de   erminat ion expenses.
          Appellant'   s Brief, p.   15.
As with pre- and post- placement services, we find that the

costs of making eligi ility determinations are administrative

expendi tures necessary for the proper and efficient administra­

tion of the IV-E program, regardless of the ou come of the

determination process. We note that 45 CFR 1356. 60(c)(1)
specifically authorizes as allowable administrative costs
 the determination and redetermination of eligibility.
are persuaded that this entails negative determinations as
we 11 .

As an entitlement program, IV-E requires the State to make

eligibility determinations. While the parties have disputed

the complexity of the Title IV-E eligibility determination

process -- the Agency contending that it is generally a simple

process, while the State and the Intervenors insisting that 

is a complex endeavor requiring many tasks by caseworkers --
is undisputed that ad inistrative costs areinvolved.     Other
entitlement programs, such as Medicaid, reimburse negative as
well as positive eligibility determinations.    The applicable
Medicaid regulation in this regard,  42 CFR  435. l001(a), is
essentially the same as 45 CFR l356. 60(c) (1):

          FFP is available in the necessary administrative

          costs the State incurs in 
 determining and

          redetermining Medicaid eligibility
                                                     ( emhas i s   added)
Similarly, all deter inations for the AFDC program are

reimbursed. We see no reason why Title IV-E determinations

should be treated any dif ferently.
We also find that, i: reimbursement for determinations for

eligibility that turned up negative were unallowable, states
might have an i centive to make more positive determinations.
The corresponding amount of cos s that would necessarily

follow could overshadow the costs associated with a negative

determination of eligibility.

We also note that in 45 CFR 1356. 60 (c) (3) and (4) the Agency
speci f ically     excluded certain act i vi ties from      be ing    reimbursed



                                                                                   Cl3
                                            4 ­

                                                   The a sence of   any ment   ion
as allowa l. administrative costs. ility in these subsections
of negative de erminations of eligi
supports our conclusion that               !l
                                 determinations of
                                     60(c) (1), and are, accord-

fall within the scope of 45 CFR l356.

                                                                    eligibility
ingly, reimbursable under the IV-E program.

Finally, we do not find it reasonable to allocate negative

eligibility determinations to another program since there has

been no demons ration that the finding of non-eligibili
                                                     igi ty for          ility
Title IV- E is the same process as the finding of e

for the other program.

Accordingly, OD the bas sisexisting
                            of the foregoing, we conclude
                                    regulatory scheme, the
                                                         St
that, under the Agency
should be permitted to claim for negative as well as positiv
eligibility determinations.

II I. Whether the State s proposed time study codes comply

           Title IV-E and the applicable regulations.

     wi th
                                     lished the following

In the CAP amendment the State esta

time study codes for its caseworkers to record time
                                                (Codespent on

                                                      3) and on

services unallowable as costs under Title IV-E 

   inistrative activities allowable as costs under Title IV-E

 (Code 4):

                                       COUNSELING
      CODE 3 - CHILD WELFAR THERAEUTIC
                                                     is directly

      This code should be employed when the worker
      counseling or providing treatment to saalternative
                                              child at
                                                        risk,
                                                          care
      the child' s family, or to the child'
      provider which is aimed at ameliorating  or remedying
                                            conditions.
      personal problems, behavior or home 


      CODE 4 - CHILD WELFAR SERVICE ADMINISTRATION
                                                                           i vi ty
      This code shou ld be used when the CHILD WELFARE act
definitions. All
      does not fit into the three preceding

      the following are 

                         examples of CHILD WELFAR SERVICE
      ADMINI STRAT ION:


                  . Referral to services:

                  o preparatio	 for and participating in            judicial
                       determina t ions:
                   o Placement of the child:

                   o Development 0 f the case plan:
                   o Case and administrative reviews:
                               - 15 ­

            . Case management and supervision:
            . Recrui tment, study, and approval of foster,
              adoptive, and other alternative care
            . Case s taf f ings and con ferences:
                                                      facilities:
            . Permanency planning conferences:

            . Invest iga t ion, evaluation, and assessment of

              the child and family s condition:

            . Child welfare public information and outreach
              including contracts with the media, special
              interest groups, potential volunteers, . and
              caretakers:
            . Communication with natural parents or alternative
              care providers on the status of the child, the case
              plan, goals for the child and the family, and
              administrative procedures of the agency:
            . Crisis intervention activity:

            . All planning, assessments, and paperwork which

              contribute to the above activities:

            . Travel associated with any child welfare activity:

The Agency faulted Code 3 as being under- inclusive and Code 4
as over-inclusive.     Specifically, the Agency argued that under
Code 3 only 
 direct counsel ing or treatment were considered
unallowable costs under Ti tle IV-E instead of all social
services, while Code 4 contained activi ties that should be
considered social services reimbursable under either Title
IV-B or Title XX, but not under Title IV-E.

The State questioned why its Code 3 should be rejected when

essentially repeats the wording of 45 CFR 1356. 60(c) (3). This
regulation provides:

     Allowable administrative costs do not include the costs of
     social services provided to the child, the child' s family
     or foster family which provide counseling or treatment to
     ameliorate or remedy personal problems, behaviors or home
     cond i t ions.
The State argued that the focus of this regulatory prohibition
barring IV-E reimbursemen is not on the broad category of
 social services, " but only on those social services " which
provide counseling or treatment, " a prohibition repeated
its Code
The Agency responded that Code 3, by merely echoing the broad

based prohibition of 45 CFR l356. 60(c) (3), would leave the

determination of how certain questionable services should be





                                                                    CIS

                                                 - 16 ­

                                                                             worker.
coded to the unfettered discretion of a social sservice

                                                   are intended to

The Agency em hasized that administrative   cos

                               costs, not to encompa
 s social

be technical, managerial-type
services and treatment. The Agency alleged that the Sta

failed to 

            rovide examples of what type of activities would

fall under Code 3, thereby leaving open the possibility that a

myr iad of other social services could Ti
                                        be charged   to IV-E which

                                          tle IV-B or Ti tle 

had previously been allocated to the

programs. The Agency added that the State '   s li=i ted interpre­
tation of the prohibition of social services in
                                              of Code
                                                 Code 3
 is

exacerbated by the over-inclusive  provisio

                           ties as crisis intervention and

wherein such listed activi 

communication with natural parents or alternative care

providers are unmistakably social services appropriately

charged to the Title IV-B and Title XX programs only.

In response to a Board inquiry as to what specific types of

activities would fall within the ambits of Code 3 or Code 

the State replied that, in keeping with the provisio

45 CFR l356. 65(c) (3), Coae 3 would include ameliorate
                                              only those
                                                         or remedy

counseling or treatment activities which "              These would

personal problems, behaviors, or home conditions.

include counseling:

                   o to prepare a child for adoption:

                   o to prepare the child and/or his biological family for
                     the child I s return home from foster care:
                   o to the child and/or biological parents regarding

                     termination of parental
   rights:
                                          I s adjustment to school,
                    o regarding the child
                      communi ty, and foster home:
                    o with the foster child, biological parents, or foster
                                                     groups -- to alleviate
                      parents -- individually or in
                      personal or behavioral problems: and         tions,
                    o with biological parents to remedy home condi 

                      such as abuse or neglect, which are injurious to the

           child.
  The State declared that the activi ties                      listed under Code 4 are
                                                                 oi activities eligible

  self-explanatory and fall with the range                                 60(c) (2).

  for Title IV- E reimbursement listed at 45 CFR l356.
  That regulatio gives a list of examples of IV-E reimbursable
  activities:
                      ( i)             Referral to services:
                      ( i i)           preparatio for participation in judicial
                                       determinations:



                                                                                           C16

                                     - 17 ­

          (iii)    Placement of the child;

          ( i v)   Development of the case plan;

          (v) - Case rev i ews ;
           vi)   Case management and supervision;
          (vii) Recrui tment   and icensing of foster        homes and
                 institutions;
          (viii) Rate setting; and
          ( i x)   A proportionate share of related agency
                   overhead.
 In describing these activities the State stressed that a

 Division of Family Services caseworker does not typically

 provide counseling or treatment activities; rather
 worker is primarily a case manager.                     , the case­

                                          The State explained that
 the majori y of the counseling and treatment services listed

 under COde 3 are provided by outside contract specialists.

 If a caseworker were to engage in such activities, the

 caseworker' s time would be listed as COde       3. If
 the caseworker refers a child or a child'
s parents  , however
                                                         to services

 provi ded by an outsi de , contract provi der , the caseworker'
action would be a Code 4 allowable administrative cost for
 referral to services as provided for in 45 CFR 1536.
The State emphasized that Code 4 is used only when an      60(c)(2)(i).
                                                            activity
does not fit into the definitions of the three preceding 

The State further noted that the alternate cost allocationcodes.  plan

amendment   (7herien  Affidavit, Ex. III), submitted after the
original amendment was rejected , was approved by the Agency

and contained most of the Code 4         activities.
Regulations require that a CAP must contain "
i nforma t 

                                                  sufficient
             on in such detail" to allow the DCA Director   to
make an informed judgment on the correctness and fairn
of a state' s procedures for allocating
95.507(a)(4).                                  costs.
                   While the State' s proposed Code 345closely
                                                        CFR
follows 45 CFR 1356. 60(c)(3), we do not consider

unreasonable that the DCA Director demanded more detail

from the State. Section 1356. 60(c)(2) provides examples of

what activities are reimbursable under Title
                                                       IV-E. It is
not an all-inclusive list, but states are still limited to
activities closely related to the activities listed and are
not permi tted t     develop ent irely new categories of acti v it i
Moreover , the codes for reimbursable     activities must be fullyes.
consistent with the provisions proscribing reimbursement for
counseling at section 1356. 60(c)(3).

As noted above , the State provided the Board with a list of

counseling activities that it felt were encompassed by its

Code 3. This list closely parallels the revised Code 3 





                                                                          C 17
;. 



                                                          18 ­
             ears in the am r.dec CA?               ulti       ately ac:ep:ed.
                 Therie
       A f   i d a v it, E       - I I I .   The S tat   e a     par e n t 1 y t h us : a k es t he vie
       that a more detai led 1             ist ing of unreimbursabl e counsel ing
          ivities is possi               le.
       The revised Code 4 incorpora es the examples of admir.istrative
       costs listed at 45 CFR 1356.                  60(c)(2).
                                                 The State s original
       Code 4 contained many of these same or related                                    activities,
       but also included costs which , in our opinion, give the
       appearance of creating new ca tegor ies of act i vi ties unrelated
       to the underlying regulation. For axample , crisis intervention
       could be subject to , misinterpretat ion as including proscribed
       counseli ng serv ices, in that it suggests counse ing.

       We find , therefore , that the Agency may properly require the
       State to use time study codes identical to those adopted by
       the part ies in the rev i sed CAP.
       Both parties have cited the preamble to 45 eFR 1356. 60(c) to
       $upport their positions, the Agency arguing that the regulation
       prohibits all social services costs, the State arguing that the
       costs of only counseling or treatment are          In respond-             barred.
       i ng to commenters who opposed the prohi bi t ion on                                reimbursemen t
       of administrative costs for social services, the Agency said
       the preamble:

               We agree that 
      treatment-oriented services , such as
                helping families be reunited or finding new permanent
                homes for children , are vital to the goals of Pub. L.
                96- 272. However , concurrently wi th the enactment of
                title IV- E, Congress en cted a revised title IV-B (Child
                Welfare Services Program) which provides for the delivery
                    t he s e so cia 1 s e r v ice s . I n add i t ion , tit 1 e XX 0 f the
                Act, now the Social Services Block Grant, provides funds
                to States for services.             Because other sources of Federal
                funds are available for the provision of these services,
                the (Agency) has prohibited reimbursement from title IV-
                funds for trea tmen             t-or ien ted         serv ices as i      ncons i s ten t   wi th
                the statutory concept of mai tenance ex               Funds         enditures.
                for those purposes are the major focus of the serv i ce
                programs. Therefore the final regulation continues the
                NPRM reQuirement by prohibiting FFP under title IV- E for
                treatment-oriented services.
                47 Fed. Reg. 30922 , 30923 (July                             15, 1982)   (emphasis
                added by tne S:a:e).




                                                                                                                   C18

                                , p.

                                       - 19 ­

Contrary to the State' s ariument , the preamble emphas izes
that treatment-oriented services are not to receive IV-E

   nding. The &CA Director' s insistence on greater deta 11s
  om the State is in no way inconsistent with tr.e preamble.

The revised Code 3, acceptable to DCA, does not conflict wi 

the preamble; it merely prov i des more spec i f ic i t Y as to the
types of counseling activities not reimbursable under Title

I V ­



Nor are we compelled to find for the State beca se another

region s DCA Director has apparently approved a CAP amendment
similar to the State' s proposed Code            3.
                                         The Int rvenors
supplied evidence that a different region had approved the

time study code of one state, Louisiana, which reads:

         THERAPEUTIC COUNSELING: Counseling or treatment

         provided to the chi ld,the child' s family or foster
         family aimed at ameliorating or remedying personal

         problems, behavior or home conditions.
The Agency admitted that it "has apparently approved a similar

vague time study code for the State of Louisiana. " Agency'
Response to Ami cus Br ief
     it is presently cons
tha t	
                                        8.
                                 The Agency added , however,
                                i der ing ac t i on to   requ ire Loui   s iana
to modify its time study        code.
In approving CAPs , a regional DCA Director is not required

by the regulations to be bound by another region' s actions.
Furthermore , as noted above , we do not consider this      an
i ncons is tency, bu t rather a reques t for greater spec i f i city,
as permi    t ted by   the regula   t ions.
In summary, we therefore find that the DCA Director was within
h isregulatory authority when he rej ec ted the State' s proposed
Code 3 and Code 4.
IV.	     Whether acceptance of the State s CAP amendment
         would result in unreasonable costs being allocated
         to the IV-E program.

In the course of this appeal the Agency raised an addi t ional
ground for the rejection of the State s amendment:
  proved , the amendmen t would resul t in admi n is tra t i ve cos
that would be unreasonable within the context of the IV-
program. The Agency alleged that one effect of the amendment
would be an increase in the State s IV- E claims for administra­
tive expenditures from fiscal year (FY) 1984 , $153,
                                                           599, to FY
1985, $7, 606 716. Agency s Brief             , p. 6.
                                              Total claims for the




                                                                                  CI9

                                 - 2a ­

IV-E program woulj          ease , ac:ording to e Agency, from
the FY 1984 level or $2 288 814 to
      $12, 780, 904 for FY 1985.
 Id. The Agenci contended that this manifold increase in IV-E
CTaims was not acco panied by       any corresponding increase (only
9 percent) in the number of children served by the State s IV-E
program. The Agency concluded that the amendoent' s increase
in administrative costs was clearly unreasonable given the
virtually nonexistent increase in the scope of the State'
IV-E program. As further proof of the unreasonableness of
amendment , the Agency compared the amendment' s proposed IV- the
costs to IV-E costs in other states in the region and deemed

the State' s costs extravagant.


The Agency theorized that the purpose of the amendment was

 to shift to Title IV-E costs more appropriately allocable

to either Title  IV-B, Title XX, or the State' s own child
welfare programs because IV-E has no funding ceiling, while
Titles IV-B and XX have funding caps. 8/ The Agency termed
the amendment . a thinly veiled attempt to bleed the Title IV-E
program for 
 oney that should more appropriately be supplied

from other sources, namely state appropriation. " Agency

Response to Board Order , pp. 14-      15.
                                      As a fi nal example of the
unreasonableness of the effect of the amendment, the Agency

stated that, while costs previously paid under Title IV-B
XX would be shifted to Title IV-E, the State' s claims underand
Titles IV- B and XX would not correspondingly decrease

                                                       , but
would rather retai n   the ir prev   i ous levels.
The State vehemently denied the Agency s allegations concern­

ing the reasonableness of the administrative costs under the

amendment. The State declared that its previous CAP severely
underclaimed IV-E administrative costs because it contained no

time study codes to determine and allocate the administrative

cos ts of Children s Serv ices caseworkers. The
                                                     State explained

that it had previously claimed IV-E reimbursement under the
optional hypothetical ceilings set forth at 42 U.
because it never had suff i c ien t da ta to determi ne wheC. S674(c)
                                                          ther it
was fully reporting all of the costs attributable to the IV-E
program; instead , it had reported only sufficient foster care
claims to qualify DFS to receive grant awards up to the





8/  For the IV-B program , states receive funds pursuant to
an allotment set forth at 42 U. C.           621.
program , the allotment formula is set forth For the Title XX
                                              at 42 U. S . C .
 1397b.




                                                                        C20

                                                                     , pp.





                                          - 21 ­

     hypothetical         ei:ing.
                                Therien Affidavit , paragraph
      State mainta4 ed that the anticipated IV-E                    5.
                                                                   The
                                                     costs would not

      unreasonable because they would not represent new or
                                                               increased
     costs; rather , the State would be allocating and reporting
     these costs differently, charging Title IV-E with 

     costs , and no longer using Title rV-B and Title XX its    true

                                                             funds  to
     pay for IV-E activities. 

                                     ., paragraph 6.

 The State noted that neither DCA nor the Regional Director

 had ci ted the unreasonableness of potent ial

 for disapproval of the amendment. The State cos    ts as a bas 

                                                further argued

 that there is no evidence that indicates 

                                            thatby
 increased the administrative costs generated     itthe
                                                      hasIV-E

                                                           actually

 program; the State has merely changed
 claiming those costs. The State disputedits methodology for

                                             the Agency'

 contention that the State' s IV-E administrative   costs would

 be disproportionate to IV-E costs claimed by other states
nat ionally, supplying tables and graphs to support this
Reply Brief , p. 36; Therien Affldavi t                       claim.
reg ional comparison made by the        , Ex.  I.  As  for  the
                                   Agency, the State contended
that it is imposs i ble for the Agency to make an accurate
comparison when those other states are still operating their

IV- E programs under the hypothetical rei bursement ceiling

set forth  in 42 U.   C. S674(c).

As this case developed , the Agency conceded a significant

portion of any Possible increase by agreeing 

ments costs for candidates who ultimately are that preplace­

                                               determined IV-E

            g i bl e are re imbursable under IV -
25- 26.
el
                                                      , Agency
                    There has been no demonstration , then s Br ief
or the original alleged increase represents activities         , of what still
                                                                         part

disputed. Also , we agree wi th the Agency that the language
of the time study codes should be modified and that may affect
the total amount ultimately claimed.                   Regardless of the amount
of claim increases resulting from the amendment
increases would be reasonable since they represent 

                                                                 , we find the

necessary administrative activities                                   roper and

                                                     in the IV-E program.

As we stated previously in this decision
pre-placement and negative eligibility determinations    , the costs forare
authorized by statute and regulations as IV-E reimbursable
costs. If                 the activities are thus authorized
that the claimed costs may increase from one , the mere fact

the next through use of a different claiming methodology
     fiscal year to

implemented by a plan amendment should 

                                                        not be used as a





                                                                                   C21
".                                     ..               ' '
                                   - 22 ­

     ground for disapproving the amend ent i: t e a endmen
          herwise per iss ible.
                              Nor do we        :he Agency ' s concl s io
     drawn from a     parl on of the State ' s IV-E adcinistratlve
     cos ts to those of other sta tes val id. As long as the cos:s ar e '
     authorized under the Act, a , state should be er. itled to receive
     reimbursemen:, regardless of whether neighboring states fai 1 to
     clai simi:a: activities or struct re their IV-E progra:s in a
     fashion that results in lower claims against the federa:
     gove'rnmen t .
     Conclusion
     For the reasons discussed above, we reverse the Regional

     Director s finding that the State may not claim in its CAP
     certain administrative costs under Title IV-E and current
     regulations implementing Title IV-E. We also find, however,
     that the DCA Director ' s rejectlon of the definitions in the

     original time study codes was permissible under the regula­

     tions.



                                                   f:




                                            Norval D.   (John
                                                                  It..
                                                                Sett le




                                            DOn         Garr
                                            Presiding Board Member





                                                                            e22
